  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




   REFORMS ARE NEEDED IN STATE
INCOME AND ELIGIBILITY VERIFICATION
            SYSTEMS
                     OFFICE OF INSPECTOR                GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law !X-
452, as amended, is to protect the integrity of the Department of Health and Human
Services’ (HHS) programs as well as the health and welfare of beneficiaries served by
those programs. This statutory mission is carried out through a nationwide network of
audits, investigations, and inspections conducted by three OIG operating components: the
Office of Audit Services, the Office of Investigations, and the Office of Evaluation and
Inspections. The OIG also informs the Secretary of HHS of program and management
problems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either
by conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS progmms and/or its grantees and
contractors in carrying out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations in order to reduce waste, abuse,
and mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HI-IS programs or to HHS beneficiaries and
of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions, administmtive sanctions, or civil money penalties. The 01 also oversees
State Medicaid fraud control units which investigate and prosecute fraud and patient abuse
in the Medicaid program.

             OFFICE OF EVALUATION                  AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
Department, the Congress, and the public. The findings and recommendations contained
in these inspection reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental progmms. This report was
prepared in the Dallas regional office under the direction of Ralph Tunnell, Regional
Inspector General and Chester Slaughter, Deputy Regional Inspector General. Project
staff include (humes lirted alphobetiudly and by region):

DALLAS REGION                                            HEADQUARTERS

Leah Bostick                                             Alan Levine
Kevin Golladay

Forjiather   tifotmation   contact: Kiwin GoR&zy at 214/767-3310 or l/8@-848-8960.
                   EXECUTIVE                      SUMMARY

PURPOSE

The purpose of this study was to assess the current status of State Income Eligibility
Verification Systems (IEVS).

BACKGROUND

Verifying information supplied by Aid to Families with Dependent Children (AFDC),
Medicaid, or Food Stamp applicants and recipients with other sources through computer
matching helps States better identify individuals not eligible for public assistance or
receiving incorrect benefit payments. Congress enacted the Deficit Reduction Act of 1984
which expanded matching requirements by requiring State Income and Eligibility
Veritlcation Systems (IEVS). Under IEVS, States are required to routinely match AFDC,
Food Stamp, and Medicaid applicant and recipient-supplied information against several
data sources: 1) Internal Revenue Service (IRS) data on interest, dividends, and other
types of unearned income; 2) Social Security Administmtion (SSA) data (Retirement,
Survivors, and Disability Insurance benefits, Supplemental Security Insurance Benefits
(SS1), and annual earnings); and 3) State quarterly wage reports and unemployment
insurance benefits. States must complete follow up within 45 days on at least 80 percent
of all IEVS information received on applicants and information targeted (selected) for
review on recipients.

This review of IEVS consisted of interviews and surveys with State officials
knowledgeable about their State’s IEVS process. To supplement our interviews, we
conducted onsite visits to five States and one local ofllce in each of these States.
Additionally, we reviewed State documentation of IEVS procedures, State supplied IEVS
statistics, and Federal IEVS regulations.

FINDINGS

This examination of IEVS reaffms findings from prior reviews and substantiates
continued operational weaknesses with IEVS. The IEVS remains a controversial
requirement for States. This controversy is especially acute because of State budgetary
restraints, resource limitations, and program growth.

State Implementation

Sevend St&es are not utilizing all required IEVS sources. During 1992 and/or 1993, 12
States did not conduct recipient matching against one or mom IEVS data sources or failed
to follow up on resulting information. Additionally, 17 States did not match applicants
against one or more IEVS data sources. Finally, as many as 46 States missed one or
more monthly applicant matches with IRS.



                                              i
Of 39 States responding (all states were surveyed with 39 providing follow up statistics),
only six States report success meeting prescribed follow up timeframes. 14 States report
not meeting follow up timeframes and 19 report not having a tracking system in place to
know. Several States commented that workers give low priority to working IEVS match
results and documenting actions. Worker failure to timely work IEVS match results was
typically due to competing time pressures and a perceived lack of benefit to doing so.

Most States could utilize IEVS sources in a more timely manner. For example, during the
1991-92 IRS processing cycle, 19 States delayed matching recipients against IRS for
several months after the IRS data was fust available. Additionally, only 11 States are
actively using the Social Security Administration’s (SSA) State Veritlcation and Exchange
System (SVES) to query SSA ffles. (An explanation of SVES is provided in Appendix
A.)

Cost Effectiveness

The majority of States repoti one or more IEVS matches are not cost effective. States
most often report the Beneficiary Earnings Exchange Record (EEER) and IRS matches as
not cost effective. Most State conclusions about cost effectiveness are based not on cost-
benefit studies but on program experience or speculation. To date, little guidance has
been provided States on how to conduct a cost-benefit analysis.

@inevaluation of IEVS cost e~ectiveness recently completedfor the U.S. Department of
Agriculture’s Food and Nutrition Senice (FNS), but not yet releasedformally by FNS,
may he~ to answer the cost e~ectiveness controversyfor IEVS matches.)

Match Data Accuracy

 While the majority of Stties (32) repoti reliabil@ and accurucy problems with the data
Jmm one or more IEVS mtiches, no specific match was consistently perceived as a
problem area by a mqjority of States. However, States have few or no mechanisms to
monitor and assess problems with the accuracy of data supplied by the various IEVS data
sources.

Flexibility

States want more flexibility implementing IEVS requirements. In many States, IEVS is
not a dynamic process that can adjust for internal pressures such as changing workloads,
staffing, and program priorities. The IEVS regulations am considered by States to be
overly prescriptive concerning which IEVS matches to conduct, when to conduct those
matches, and how quickly to follow up on match results. Most States (76 percent) want
to discontinue one or more IEVS matches. Nearly all States (46) are using targeting
strategies to limit IEVS information provided workers.

Variations in waiver authority among progmms and application of authority fimther limit
State flexibility and weaken coordination among Fedeml programs.


                                             ii
Match Efficiency and Effectiveness

While 37 States repoti IEVS could be made more efficient and effective, 28 States report
they Lzck the resources to support these effotis. This efficiency and effectiveness can be
achieved through a variety of systems changes and training initiatives. Some of these
initiatives will require changes in IEVS regulations to allow States more flexibility.

Additional Federal Data

States want additional Federal data. However, States have yet to be given access to
additional Federal data they report would be helpful (e.g., Veterans Administration
benefits, Federal employee salaries and pensions, U.S. Savings Bond holdings, and State
death records maintained by SSA). While we suspect access to these data sources could
be helpful if utilized, we are reserved about requiring access when many States are failing
to adequately utilize those data sources already required by IEVS regulations.

RECOMMENDATIONS

Independently verifying client circumstances through computer matching with IEVS data
sources helps to ensure the integrity of the eligibility determination process. Although
IEVS matching is mandated by Fedeml law and regulation, our interviews with State and
local users indicate the practicality and cost effectiveness of IEVS under current
regulations is uncertain. The uncertainty and resulting controversy have resulted in IEVS
implementation and monitoring problems which need to be addressed at many levels of
government, from Federal oversight agencies to State and local welfare offkes.

Recommendation #1: The Administration for Children and Families (ACF) and the
Health Care Financing Administration (HCFA) should use appropriate mechanisms to
address IEVS issues by:

       �	     examining existing IEVS requirements in each agency, at both the central and
              regional office levels;

       �	     addressing the need for and degree of flexibility to be afforded States
              concerning IEVS;

       �	     identifying spedc areas in which coordination between oversight agencies can
              be improved, resources can be consolidated or more effectively utilized to
              monitor IEVS, and procedures can be streamlined to minhize duplication of
              effort and contradictions among Federal agencies’ IEVS policies (e.g., waiver
              approval, targeting approval); and

       �	     engaging outside, involved parties (e.g., the States, the Department of
              Agriculture, the Office of Management and Budget) to the fullest extent
              possible as IEVS issues (e.g., flexibility) and requirements are debated.



                                             ...
                                            111
Recommendation #2: The ACF should continue to seek a rule change which would
allow the AFDC program an equivalent degree of flexibility currently available to the
Food Stamp program with regards to IEVS (e.g., waiver of 45 day follow Up
timeframe). Since the AFDC, Food Stamp, and Medicaid pro-s              are highly integrated,
State flexibility is limited when each program is not able to allow the same degree of
flexibility. States report it is unrealistic to implement an IEVS waiver for one progmm
without being able to implement the same waiver for the other programs.

Recommendation #3: The HCFA should seek regulatory changes for the Medicaid
program which provide for IEVS flexibility equivalent to those sought by ACF for the
AFDC program. As mentioned above, IEVS flexibility must be consistent between
programs to be implemented effectively by States.

Recommendation #4: The ACF and HCFA should inform State public assistance
agencies of their willingness to work with them to strengthen automated eligibility
verifkation activity.

COMMENTS

comments on the draft report received from ACF, the Assistant Secretary for Management
and Budget (ASMB), the Assistant Secretary for Planning and Evaluation (ASPE), SSA, and
HCFA concur with both the findings and the general thrust of our recommendations.
However, ACF, HCFA, and ASMB disagree with the need for the departmental governing
council recommended in the draft report and the need for addressing IEVS issues prior to
healthcare and welfare reform. Additiondly, HCFA does not concur with the
recommendation to seek a regulatory change to allow for IEVS flexibility consistent with that
sought by ACF.

The need for a governing council stemmed from our view of the complexity of the issues
involved and the need for intemgency coordination and consensus regarding IEVS policy and
compliance. The governing council was envisioned as a framework to promote and expedite
leadership as broad policy (e.g., welfare reform) and technological (e.g., enhanced systems
or new databases) changes occur. Both SSA and ASPE concurred with this recommendation.

The ACF, HCFA, and ASMB disagreed with the governing council approach primarily
because existing interagency coordination and communication mechanisms were believed to
be adequate. Based on the agencies’ assurances and to provide them maximum flexibility,
we removed the recommendation of a governing council tasked with addressing IEVS issues;
we modifkd the recommendation to place the burden of addressing IEVS vt.dnerabilities with
the appropriate agencies through existing communication mechanisms.

With regard to the timing for addressing IEVS issues, the ACF, HCFA, and ASMB
questioned the value of devoting limited staff resources to addressing IEVS at a time when
welfare and health care programs are planning signifkant changes through reforms. While
we recognize change will occur, we cannot in good conscience suggest that addressing IEVS
weaknesses be postponed until reforms have run their course. Our view is based primarily


                                              iv
on the Department’s role and responsibility to CUrbfraud, abuse, and progmm vulnerabilities
and the realization that these reforms may take years to implement, with nothing to suggest
the importance of IEVS will diminish.

Additionally, IEVS issues should be addressed without delay because consistent requirements
and flexibility between the major welfare programs is important to those States which are in
the midst of systems changes or planning such changes which may be constrained by existing
policy. While ACF agrees to seek regulatory changes to provide an equivalent degree of
flexibility found in the Food Stamp program, HCFA’s decision not to seek similar changes
may burden States with IEVS regulatory requirements for the Medicaid population that may
not exist for the food stamps and AFDC populations. Since most States’ automated systems
integrate the IEVS process for all three programs, flexibility is limited if each progmm does
not provide for similar matching and follow up requirements. The resulting disparity
between program requirements exempliiles Federal agencies’ failure to coordinate
adequately.

Our concern and purpose in recommending that HCFA pursue regulatory change was to
ensure that ACF’s and FNS’s efforts to provide States expanded IEVS flexibility would not
be limited by the Medicaid program’s restrictions. We do agree with HCFA’S assertion that
many States could make better use of targeting to increase the effectiveness of IEVS
matching while decreasing the burdens of follow up. Our belief stems from 1) States’
admissions that IEVS processes could be made mom efllcient and effective by better use of
targeting and 2) initial results from FNS ‘S study of the cost effectiveness of targeting IEVS
matches. Although we agree that targeting affords States considerable flexibility, targeting
regulations are restrictive in several respects (e.g., targeting rules require follow up of all
targeted match results for recipients within 45 days of the match and targeting is not allowed
for applicant matches). While we did not directly evaluate the impact of providing States
with added IEVS flexibility, we found States wanting more flexibility and both ACF and
FNS supportive of policy changes to address State desires.

We believe that HCFA needs to work with ACF and the FNS to promulgate consistent
regulations covering IEVS matches. The decision should be based on interagency discussion
and consensus. If the Medicaid program has limited options for flexibility comparable to the
AFDC or Food Stamp programs, no interagency discussion and consensus is possible and
States may be unnecessarily burdened.




                                              v
                            TABLE               OF CONTENTS

EXECUTIVE SUMMARY


INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


METHODOLOGY                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


  � State   Implementation.           . . . . . .. O. . . . . . . . . . . . . . . . . . . . . . . . . . . ..6


  � CostEff@iveness             . . . .Oo...ao.+..+..+.                 . . . . . . . . +........             ..13


  •Mat&Da~Accuracy..                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15




  � Flexibility        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...17


  �Match      Efficiency andEffe&veness             . . . . . . . . . . . . . . . . . . . . . . . . . . ...23


  � AdditionalF~e~             Da@..      . . . . . .. OO. OOOO. .O.O ., . . . 0 . . ..0....24


RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


APPENDICES


A: SSA’S File Transfer Management System and SVES                         . . . . . . . . . . . . . . . . . A-1


B: IRS Benefit Cost Analysis              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


C: SSA’s Statement ofDataAccuracy                  Provided the Data Integrity Board.               . . . . . . .C-l

D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l
                            INTRODUCTION

PURPOSE

The purpose of this study was to assess the current status of State Income Eligibility
Verifkation Systems (IEVS).

BACKGROUND

Welfare Program Ovem”ght

Three of the Federal government’s major welfare programs are Aid to Families with
Dependent Children (AFDC),l Medicaid,* and Food Stamps.3 The Department of Health
and Human Services (DHHS) oversees the AFDC and Medicaid programs, while the U.S.
Department of Agricultme (USDA) oversees the Food Stamp program. Although DHHS and
USDA have overall responsibility for administering the programs, States are responsible for
determining participants’ eligibility.

Determining eligibility and the amount of assistance for AFDC, Medicaid, and Food Stamps
involves a myriad of eligibility factors and program-specific rules. Many different factors
are used to determine participant eligibility, including earned income, unearned income, and
amount of assets. Information relating to these factors must be obtained, evaluated, and
verifkxl by the State for applicants and recipients. Manually performing these steps is a
time-consuming, ineftlcient, and error-prone process. For these reasons, States rely heavily
on automated systems to facilitate the eligibility and verification process.

Federal Suppoti of Staie Automation Activities

The Federal government plays a signitlcant role in supporting State automation activities.
For fiscal years 1981 to 1990, DHHS and USDA estimate that they provided over $950
million to States to develop and operate eligibility systems for AFDC, Medicaid, and Food
Stamps.i

While all States use automated systems of varying capacity and sophistication, most are
developing or operating automated eligibility systems which integrate the AFDC, Me&caid,
and Food Stamp programs. Such computer systems are able to determine eligibility for all
three welfare progmms. This is particularly efilcient, given that many of the clients from
one program are also clients in the other programs; the interdependence among these welfare
programs is high:5

       �      Everyone who receives AFDC is eligible for Medicaid;
       �      Nine out of 10 AFDC recipients receive Food Stamps;
       �      Two out of three Medicaid recipients receive Food Stamps; and
       �      Three out of four Food Stamp recipients receive Medicaid.



                                                1
Futors Influencing Computer Matching

Verifying AFDC, Medicaid, or Food Stamp applicant and recipient supplied information
with other sources through computer matching helps States to better identify those who are
not eligible for public assistance or who are receiving incorrect benefits. Although welfare
agencies in a few States have conducted earnings matches and other forms of computer-aided
matches since the early 1970s, most matching activity is relatively recent in origin, with
rapid growth during the 1980s.

The rise in the use of computer-aided matching is largely attributable to the growth and
sophistication of State welfare automated computer systems. Other factors contributing to the
use of computers to independently verify client-reported information include: 1) the
increasing public concern with fraud and abuse in the welfare system, 2) the increasing use
of client Social Security numbers (SSN) for use as identitlers, and 3) limited program
resources (e.g., staff, finding).

Early Matching Activity

The earliest matching activity by State welfare agencies was conducted at the States’
initiative, without Federal enabling legislation and requirements. However, in 1977,
Congress passed legislation mandating wage matching for the AFDC program. The
amendment to the Social Security Act required all States to begin matching by October of
1979, using etiher State earnings records or earnings available from the Social Security
Administration’s (SSA) Beneficiary Earnings Exchange Record (13EER)b. The legislation
also required States to maintain automated ffles of clients’ Social Security numbers.
Expansion of wage matching to the Food Stamp progm.m quickly followed with passage of
the 1981 Omnibus Reconciliation Act.

Development of IEVS

While wage matching progmms were helpful in preventing incorrect eligibility payments,

results from the Grace Commission showed States were not doing enough to prevent

incorrect payments. Specifkally, the Commission estimated $4.4 billion in Fedeml and State

funds were misspent annually and recommended States strengthen eligibility verification

procedures.’ As a result, Congress enacted the Deficit Reduction Act (DEFRA) of 1984

which expanded matching requirements (Social Security Act, section 1137). The DEFRA

requires States to conduct other types of matching in addition to wage matching and to use

matching in the Medicaid program, as well as in the AFDC and Food Stamp progmms.

Each State must operate an IEVS which routinely matches client-reported income information

against:


       �	     Internal Revenue Service (IRS) data on interest, dividends, and other types
              of unearned income;

       �	     Social Security Administration data via the Beneficiary and Earnings Data
              Exchange (BENDEX) which contains both Retirement, Survivors, and


                                              2
                Disability Insurance (RSDI, Title II) benefits and earnings from the beneficiary
                earnings record fde (ERF), and the State Data Exchange (SDX) which contains
                Supplemental Security Income (SS1) benefit information; and

        �       State quarterly wage reports and unemployment insurance benefits (UIB).

Follow Up on IEVS Match Results

States are required to follow up on all DEWSinformation related to applicants. However, the
Omnibus Reconciliation Act of 1986 amended the Social Security Act to clarify that IEVS
data received on recipients may be ta.rgeteds (selectively applied) to those uses which are
likely to be most productive. Targeting was intended to increase the efllciency with which
IEVS data are used to identify and prevent ineligibility and incorrect benefit payments.
Follow up on IEVS information is required within 45 &Jysof matching with the IEVS
source. However, follow up on up to 20 percent of IEVS information can be delayed
beyond the 45 day targeting rule for the purpose of receiving verit-lcation from third party
sources (e.g., banks).


                                   TYPICAL IEVS PROCESS

 The IEVS process begins when a county or local caseworker forwards information collected from
 applicantsto the State. After the information is entered into a master file, the State exchanges a
 file with the appropriate Federal or State agencies for matching. If, for example, an AFDC
 applicant earned interest in an unreported savings account, the account and interest should be
 detected when the file is matched with IRS information. This is commonly referred to as a “hit.”
 IRS will return a tape to the State, with the individual’s account number, the name and address of
 the financial institution paying the interest, and the year the income was reported.

 IEVS requires all match information returned prior to the applicant becoming a recipient to be
 resolved. For information received after the eligibility determination is made, each State can
 either investigate all computer hits or screen (target) out those hits least likely to result in a
 change in a recipient’s eligibility. The State then distributes the information (often referred to as
  “alerts”) which are targeted for review to the appropriate county or local offke for follow up.
  Caseworker follow up on the IRS example cited above would consist of 1) reviewing the
 information and comparing it with the case record, 2) contacting the applicant or recipient and/or
 other sources (e.g., banks) to verify new or previously unverified information, 3) resolving any
 significant discrepancies, 4) determining if the information affects eligibility or benefit amounts,
 and 5) noti&ing the applicant or recipient of any intended adverse action or entering in the case
 file that no further action is necessary. The Computer Matching and Privacy Protection Act of
 1988provides that any adverse action based on information received through a computer match
 can only be taken after the individual has been notified and given 30 days to respond. However,
 a shorter notification is permissible if a fair hearing agreement exists.




                                                   3

Prior ZEVS Reviews

Several reports have been released on the implementation of IEVS. Reports by HCFA,
FNS, American Public Welfare Association (APWA), and others describe much of this
activity. In 1991, we released a report, “The Income and Eligibility Veritlcation System
(IEVS): A Time For Reform?, ” which synthesized the findings and recommendations of
several reports examining States’ implementation of IEVS. Additionally, the synthesis was
supplemented by discussions with Federal and State welfare officials.

The 1991 review cited that major problems existed with States’ implementation of IEVS.
For example, reviewed reports indicated that:

       �	     information in the Federal data bases has been inaccumte, duplicative,
              untimely, or inaccessible;

       �	     Federal requirements, in important respects, are highly prescriptive, unclear,
              or inconsistent; and

       �	     the administmtive capacity of many States to implement IEVS is limited by
              insufficient staff and inadequate computer resources.

Site visits to three States confirmed that problems with Federal data bases, Federal
requirements, and sufficient resources hindered State efforts to operate IEVS. We concluded
that problems appeared substantial enough to warrant further examination of IEVS, and we
planned to undertake further study in this area. Additionally, we suggested that the Federal
oversight agencies consider a basic reexamination of IEVS which might address ways in
which:

       �      the Federal government could give States more flexibility in carrying out IEVS
              matches and, at the same time, hold them more accountable for results;

       �      Fedem.1 data bases used in IEVS matches might be made more useful; and

       �      additional Federal data could be made available to States.

METHODOLOGY

This examination of IEVS began with a review of the legislative history of IEVS, IEVS
regulations, and other IEVS reviews conducted by Federal and State agencies not previously
examined.

To determine current State IEVS practices and concerns, we next surveyed each State using
interviews and mail surveys with the State official most knowledgeable about the State’s
IEVS process (this person was often designated by the State as their IEVS coordinator).
Depending on the knowledge of the State IEVS coordinator, further discussions were
conducted with other State staff to more fully understand a State’s IEVS processes and
experience. ~eseadditiond      titemiews were t~icWywith       automation systems' staff
famihar with IEVS.

While most States were contacted by phone or mail, five States (Arizona, Arkansas, Georgia,
Maryland, and Tennessee) were visited for onsite interviews. Selection was purposive and
based on a variety of factors:

       �	      Arizona was selected because of its participation as a pilot State in a targeting
               study conducted by FNS.

       �	      Tennessee was selected because it 1) had implemented SSA’S File Transfer
               Management System (FTMS) and 2) was the pilot State for the wire to wire
               data exchange and query system (WTPY), (See Appendix A for an
               explanation of FTMS and WTPY.)

       �	      Arkansas, Georgia, and Maryland were selected to get a mix of States based
               on the differing administration of welfare assistance programs. Arkansas (like
               Tennessee and Arizona) was State administered. On the other hand, Georgia
               and Maryland were county administered and State supervised.

Within each of these five States, one county/local office in the vicinity of the State office was
also visited to interview the office manager, a supervisor, and three eligibility workers.
Questions to local offke staff provided a perspective on whether and how IEVS impacts the
case worker and another viewpoint on IEVS problems. Respondents at both the local and
State levels were asked to provide documentation of 1) any problems such as timeliness or
accuracy problems and 2) the effects of such problems on program eligibility or payment
determinations.

Along with State interviews and surveys, we reviewed any available IEVS statistics provided
by States, present State targeting procedures, and any written State IEVS program guidance
or ~uirements for local offkes.

Our review was conducted in accordance with the Quality Staruizrakfor Inspections issued
by the President’s Council on Integrity and Efi3ciency.




                                                5

                                  FINDINGS


This examination of IEVS reaffms findings %m prior reviews and substantiates
continued operational weaknesses with IEVS. The IEVS remains a controversial
requirement for States. TMs controversy is especially acute because of State budgetary
restraints, resource limitations, and program growth.



SeveraJ States are not utilizing all required IEVS sources.

While nearly all States are conducting the required IEVS matches, several States are not
fully utilizing match results or conducting matches as often as required.

�	     Several States did not conduct recipient matching or utilize the resulting
       infomtion j?om one or more IEVS akztasources.

During 1992 and/or 1993, we identifkd 12 States not performing recipient matching or
follow up on one or more IEVS sources. The most often underutilized match was the
BEER with 10 of the 12 States not matching recipients or following up on information
obtained from BEER. Six States had not fully utilized IRS. Three States underutilized
the State wage, and one State did not use BENDEX to obtain SSA benefit information.
Examples of State nonmatching or failure to follow up are provided in the chart on the
next page.

�      Several more States (17) do not match applicants
       against one or more IEVS duta sources.
                                                                  ~
                                                                                States
Regulations require matching applicants at the earliest
available opportunity (e.g., IRS match is monthly).

However, as many as 17 States report not routinely matching           x

applicants. Matching is either delayed until the applicant
becomes a recipient or is not done. (See Figure 1.)

                                                                      XKF

While a few States’ eligibility systems may not be designed to

gather information on applicants prior to an eligibility

determination, most States report they are not matching           ~     Cwslfveyofstattw


applicants because of a perceived lack of benefit to doing so.            Figure 1

States either consider the match to be not cost effective, or

report that matching applicants with the specified IEVS source

is not productive since resulting information from the IEVS match is not typically returned

until after the eligibility determination has been made.





                                               6

                      Examples of State Nonmatching or Failure
                         to Utilize IEVS Match Information

In State A, BEER alerts are not being sent to local workers. According to one State ofllcial,
BEER alerts would “just clutter up the alert screen” of workers.

State B only recently entered into a requisite matching agreement with IRS effective August
7, 1993. In prior years, this State had no agreement and, consequently, conducted no
matches with IRS.

During our site visit to a county offkx in State C, we found that IRS and BEER alerts had
never been worked. The alerts were simply stored in a locked room and never reviewed.

In State D, IEVS reports were not work~ from April 1991 to February 1993. State
officials report this decision was because they were in the process of converting to a new
computer system. The IEVS subsystem which will monitor IEVS matches is not expected to
be totally fictional until January 1994.

While State E did not discontinue the BEER match, in 1991 it stopped requiring local offices
to clear monthly discrepancy reports/alerts. State ofllcials reported this was done because of
results from an internaJ 1991 cost-benefit analysis on the BEER match which showed the
State “was spending a lot of money trying to clear up discrepancies from BEER, but weren’t
getting much in return. ”

In State F, follow up for several matches was discontinue& For example, the State wage
match was discontinued in 1992 because of a “reported information overload to the county
OffIces.“ BEER was discontinued in 1990 because the information was considered to be “too
old and unreliable” with most of the “information available somewhere else. ” Additionally,
IRS information is not utilized. Specifically, since their Family Assistance Management
Information System (FAMIS) was installed approximately two years ago, they no longer
report having the ability to process and distribute IRS tapes without involving the corporation
with whom they contract with to maintain and operate the system. Since IRS does not rdlow
contractor access to IRS tapes, they had to stop processing or distributing the information to
the county ofllces. State F’s approved targeting plan specifically precludes follow up on all
BEER results.

In State G, the BEER matches were suspended in 1991 and not resumed until 1993. State
ofllcirds reported this resulted from 55A’s change in the record format of the BEER file. It
took a significant amount of time for the State to make changes to its computer system to
accommodate the new file format. Changes were not perceived as a priority.

Starting in 1993, State H stopped distributing BEER results to staff within 45 days of the
match.

In State I, some local agencies “shred IEVS reports upon receipt. ”

In State J, State ofilcials report “wage reports are probably not being worked in more than
50 percent of the counties. ”




                                                 7

�       States are not matching w“thIRS each month.

         from IRS show that as many as 46 States missed one or more applicant matches
Statistics
with IRS during the 1992-93 processing cycle. (See Figure 2.) Data provided from IRS
was insufficient to determine whether the match tape from the State was received late by
IRS and processed with the next month’s run or was never submitted.

                                     Each Month Many States Fail To Match
                                             Applicants With IRS
                     States Not
                      Matching
                       50
                       40
                            1
                       30       25
                       20             19                                 18   18
                                                               13   14
                                                          10                       8
                        lo-

                        0- 1           1                  1         ,     I    1
                          ,9$$        Aug Sep Ott Nov Dec Feb Mar Apr May Ju~993
                                              Month of Processing
                   SoLKoatBaaad on Data SqWad by RS
                          RS does not #)fOCeWS h JMLIiW

                                                  Figure 2

Regulations clearly state that the matching of applicants must be at the next available
opportunity after an application has been fded. The next available opportunity for IRS is
monthly except for January when IRS does not process requests.

Of the States not matching consistently with IRS, 13 States report they do not match
applicants with IRS. Others not consistently matching applicants report systems problems
or other delays generating the IRS request tape as reasons for missing an applicant match.
Some States considered failure to match an oversight problem and were not aware of the
missed match or matches.

Processing time-es            required by Fe&ml regulations are not met in most StaJes.

                     “We are certainly not meeting the intent of the kzw concerning
                     the 45 day timejiame for     IEVSmatches. “

                                                  - A State IEVS Coordinator

�	      Of 39 States surveyed, only six States report meeting the rule thut 80 percent of
        IEVS match results are followed up w“thin45 duys.

Most States are not meeting the prescribed follow up timeframe for one or more IEVS
matches or do not know. Of 39 States surveyed, only six States report that during the



                                                          8

frost three quarters of 1993, the percentage of follow up completed within 45 days equaled
or exceeded 80 percent. Of the remaining 33 States, 14 did not meet the 80 percent rule
and 19 reported “Don’t Know” because the State lacks a statewide tracking system capable
of monitoring timely completion of follow up.

To illustrate States’ inability to complete follow up timely, of the five States in the
southwest region (Texas, New Mexico, Arkansas, Louisiana, and Oklahoma), not one is
able to meet the 45 day requirement for processing IEVS data as required for all recipient
matches. Officials from these States believe timeframe requirements are “neither practical
nor manageable. ”

�	     Several States commented that workers give low priority to working IEVS and
       documenting results.

The following are typical responses from State and local welfare officials concerning
workloads and the priority workers or State oversight agencies place on IEVS follow up:

            “We can barely issue benefits in a timely manner, let alone do things like
           IEVS matches which are real nice but impractical. “

            “A lot of IEVS follow up fin ‘t getting done because 99 out of lCW times
           the worker already knows the information. We are just spinning our
           wheels. “

           “There is just so much workers have to check, and they alreudy don ‘t
           huve the time to do their al.zily work as it is. “

            “lhere m“ght be something worthwhilejiom the BEER match, but given
           the high caselbazk and low priority of BEER alerts, these alerts just
           clutter up the worker’s alert screens. R

           “It’s a joke here because of the caseload%. We are going to have to hire
           alert workers on top of eligibility workers just to keep the alerts anywhere
           close to current. “

According to one State’s IEVS coordinator, State IEVS follow up statistics emphasize the
lack of priority workers place on completing IEVS alerts. Due to staff shortages, workers
have a considerable amount of work to complete regarding eligibility determinations and
recertifkat.ions of recipients. As a result, IEVS is very low on their list of duties, and
workers are simply too busy to provide more than a “quick and dirty” review of IEVS
information.

This sentiment was echoed by another State’s XEVScoordinator who reported that because
of the 45 day follow up timeframe, workers are “pencil whipping their IEVS nxponses to
get them back to the State agency more quickly.

In a county welfare office we visited, one of the suggestions from a county Food Stamp
Management Evaluation report (dated April 1992) was that processing of IEVS and claims


                                                    9
should not be done unless or until all on-going changes which would affect eligibility or
benefits are completed. Officials believed placing IEVS lowest on a worker’s list of
priorities would “work to assure correct benefits to clients and prevent quality control
errors. ” However, officials recognized that a “backlog of IEVS reports would be
created. ”

o	     i%e adequacy of a worker’s resolution or documentation of alert resolution is
       suspect or nonexistent in many States.

Virtually all (12 of 15) of the local welfare office workers interviewed stated they lacked
enough time to do more than a cursory review and resolution of IEVS information.
According to State officials from the southwest region, stringent timeframes for follow up
negatively impact the quality of review done by workers. Officials report that in a “futile
attempt to meet follow up timeframes, eligibility staff fmd themselves in the dilemma of
performing a quality analysis of the match data versus performing a cursory assessment of
the data to meet a monitored timeframe. ”

A lack of training and management controls over workers can result in resolutions being
conducted in a cursory fashion, ultimately resulting in incorrect statistics. In one State,
workers are “pencil whipping” IEVS responses. According to State officials, this “only
serves to force the recording of many responses as ‘current benefits correct, referred for
investigation,’ a coding which also showed no savings. ” The consequence of such coding
is to “seriously under-report effectiveness and savings” due to IEVS.

While most States (39) require workers to speci@ how information received from a match
is resolved, 8 do not require documentation of resolution. The four remaining States
failed to respond to our question. It should be noted that, in some cases, States may only
require workers to specify the outcome of selected matches.

In addition to impacting the quality of follow up review conducted by workers, work
pressures negatively impact the accuracy and completeness of tracking reports.
Considering it “unfortunate,” one State’s officials reported experiencing workloads which
“prevented the accurate completion” of tracking reports. As a consequence, the State
discontinued use of its State-wide tracking reports on alerts. Tracking of completed
resolution activities is now a fimction of the local offices. Ofiicials readily admit that
without an adequate tracking system, management is unable to properly assess the
adequacy of follow up or to maintain statistics needed to assess the costs and benefits of
matches. They stated counties “do the follow up reports when they have the time and, in
some cases, counties may never have the time -- We know that!”

Another State provides an example of flawed IEVS ‘S savings reports. According to State
officials, savings calculations are considered “an inappropriate measure of the savings that
have resulted from IEVS, as workers often fail to complete, or to accurately complete the
savings calculation screen” of its IEVS alert resolution computer system. Officials
consider this a “training issue” and plan to address the problem in the “near fhture. ”



                                               10

    Most States couili utiliz IEVS sources in a more timely manner.

    Several State respondents express~ concern with their State’s inability to meet timeframe
    requirements for all matches. In an effort to be more timely in making match data
    available to workers, most States (43) provide online access to data resulting from one or
    more IEVS matches. However, States are not always timely in accessing the data source.

     �	         During the 1991-92 IRS processing cycle, 19 States delayed matching recipients
                against IRS for several months afier the IRS alzta wasjirst avm”lable.

    Many States fail to access IRS information when it is first available. Specillcally, many
    States matching their recipient population once a year delay matching with IRS beyond the
    months when the data fnst becomes available (July)   and the month when the IRS fde of
    unearned income is typically 99 percent complete (September).9 (See Figure 3.)

                               Many States Delay Annual Recipient Matches With iRS
    States                                                                                                              States
    lo-    1990 Tax Year                                     1991 Tax Year                                                   10
     9.   C#a Fkst Available                              l)ata First Available
                                                                                                                               9
     8-                                                                                                                        8
     7.             � Best     tjm8tomafchwlfh/RS        """'" "`""y """""""""""""`"""""""""""'`"``"``"`""""""-"""`""
                                                                                                                               7
     6-                                                                                                                        6
     5.                                                                                                                        5
     4-                                                                                                                        4
     3.                                                                                                                        3
     2-                                                                                                .                       2
     1.                                                                                                                        1
                                                                                                                               0
          JUL AUG SEP OCT NOV DEC FEB MAR APR MAY JUN               Jt,JL AIJG SEP OCT NOV DEC FEB MAR APR MAY JUN -
     1991                            Month State Submitted Recipients for Annual Match                                  1993
    sOUfCtI’    Oats supplled by IRS, tex years 1990 and 1991.      NO IRS matching In January. St8tea not conducting
               annual raclplant matches or Sta tee submitting all   recipients every month are not lnoluded. Although July
               Is when new tax year data Is first a vsllable, we     did not Ilst It as the a best time to match because of IRS
               concerns. IRS recognlzea the potential for start     up ~roblems durlrsg the flrat month of provldlng new data.
J

                                                           Figure 3

    �          Most States are rwtfilly utilizing SSA’s File Transfer Management System.

    While most States have implemented SSA’s wire-to-wire File Transfer Management
    System (FTMS), its usage by States is still limited. (See Appendix A for a description of
    the FTMS.) For example, the State Verit%ation and Exchange System’s (SVES) wire
    third party query (WTPY) is presently used routinely by only 11 States. Additionally,
    many States-us~g the FTMS ‘still continue to use ta&s ‘for s~me fde transfers. Part of the
    delay in States using the query option resulted from delays by SSA (i.e., SSA did not add
    States to WTPY for much of 1993 while it implemented SVES). However, the most
    signifkant delay reported by StateS is the result of a lack of systems resourees and the low
    priority placed on WTPY development. Of 12 States contacted and actively using FTMS,
    seven reported resouree limitations and the low priority placed on WTPY development
    accounted for delays implementing WTPY. Other State reasons varied. One State was


                                                                      11

still experiencing problems with FTMS and did not want to develop WTPY until problems
were resolved with SSA. Another State was waiting for documentation about WTPY from
SSA and the names of contact personnel concerning WTPY before doing anything to
implement WTPY. Remaining States reported they did not know why WTPY had not
been implemented.

The FTMS and SVES systems represent an effort by SSA to improve the timeliness md
efficiency of data exchange with States. By using the FTMS to exchange fdes with SSA,
States eliminate many of the hassles of sending and receiving tapes. Although use of
SVES to query BENDEX, SDX, or BEER results in the normal output from those
exchanges to the State and the output ffles retain their independent nature, the delays
caused by waiting for tapes will not exist. Files will be sent by SSA as they are created.
With FTMS, if fdes are damaged or not received, it is a simple matter to ask SSA to
resubmit the appropriate fdes. States often have tight timeframes during which to process
data. Thus, the reliability of FTMS ensures processing is not missed because of a lost or
delayed SSA tape.

Additionally, with use of SVES to query SSA, a State can accomplish any or all of the
following queries with a single input: 1) SSN verifkation, 2) WTPY query, 3) BENDEX
accretion/deletion, 4) SDX welfare number transactions, 5) SDX Interim Assistance
Reimbursement (IAR) transactions, and 6) BEER requests. One big advantage of the new
SVES query process is an improved method of SSN veritlcation. In the past (or by not
using SVES), the method of locating or veri@ng a person’s record varied from exchange
to exchange (e.g., BENDEX, SDX, or Enumeration Verillcation System (EVS)). While a
person’s record might be verifkd through one exchange, it might not be verii%d through
another. Each exchange has slightly different verifhtion procahues.

With SVES, the veritlcation process has been standardized and improved. The SSN
veritlcation process of SVES differs from other exchange veri.tlcation procedures by:

       1.	    utilizing all of the SSA databases (NuMIDENT, Master Beneficiary Record
              (MBR), and Supplemental Security Record (SSR)) to determine identity,
              thereby, permitting a positive verifkation against any of the three databases;

       2.	    allowing for surname differences between State input data and SSA data
              when fnst name and date of birth agree. This primarily affects records for
              females where maiden and married names diffeq and

       3.	    searching for a “better” number when the State input data does not agree
              with SSA records.

Through this verifkation process, any transaction for a verified SSN will be accepted by
the independent exchange (BENDEX, SDX) without the need for further verifkation.
Because of the improved verifkation process, SSA estimates SVES will return
approximately 12 percent more verified social security numbers (SSNS) than the current
Enumeration Verifkation System (EVS).


                                              12

l%e majority of States report one or more IEVS matches are not cost effective.

Although IEVS has been operating in each State for many years, the cost effectiveness of
IEVS is still an issue. While six States report all IEVS matches are cost effective, the
majority of States (35) report one or more IEVS matches are not cost effeetive. 10

�          Most States believe the BEER and IRS mutches are not cost eflective.

A majority of States (29) report that, overall, IEVS is a cost effective program.

However, with regard to specific matches, the applicant and recipient BEER and IRS

matches are typically perceived as not cost effective. State conclusions of cost

effectiveness are typicaUy based not on cost-benefit studies, but on program experience

and perception. Only 20 States’ conclusions were based partially or wholly on some type

of cost effectiveness study. Further, only 11 of these States evaluated one or more

matches using protectable sampling techniques.


Figure 4 presents State perceptions of the cost effectiveness of various IEVS matches.

States’ responses concerning perceived cost effectiveness of the IEVS matches did not

include deterrence as a factor in the indicated conclusions.


                          State Perceptions of IEVS Cost Effectiveness
 Percentot                APPLICAiUl_          @ECIPKhfTlUlATCt+l$K3                (IVH3ALL
 states i?y               MA7CMNG
 Match
 lN=51~             YES      NO     DK/NA      YES          NO     DK/NA      YES      NO    DKINA


 AU                41%     25%         33?40   59%         20°A     22%       57%    2070      24°h
 MATCHES

 WE                73%      10%        18%     82%         10%       8%       75%    12%       14%

 SW                71%       6%        24%     82%          6%      12%       76%     6°h      18%
 BENEFITS:

 STATE             61%     20’%0       20%     80%         14°h      6%       75%    140~      12?40
 WAGE

 SSA               59%      16°h       25%     78%         12“h     10%       67%    16%       18%
 BENEFITS

    m            I 33%     39%         27 y“   41%         47 Yo    12%       39%    41 y“     20%

    BEER                               33”h    16%         63%      22%       18%    57%       25 yO

DK=Don’t Khow        NA=Not matching                                       Source: St@ Survey Responses
                                               Figure 4




                                                     13

The Computer Matching and Privacy Protection Act of 1988, enacted to regulate computer
matching with Federal agencies, requires participating agencies to provide cost and benefit
figures when matching agreements are renewed. Affected IBVS matches are the
BENDEX (SSA benefits and earnings), SDX (SS1 benefits), and IRS matches. Thus far,
States have submitted cost and benefit statements for the last two matching agreements
signed. Appendix B shows data submitted by States for the IRS agreement covering
release of 1990 tax year data. Based on the figures provided, cost and benefit numbers
for 22 States show the IRS match to be cost effective, 17 show the match was not cost
effective, and 12 show either no data or incomplete data.

�      A recent evaluation conductedfor the Food and Nutrition Service (FNS), but not
       yet released by FNS, may help to answer the cost e~ectiveness controversyfor
       IEVS matches.

According to FNS ofilcials, a contractor to FNS has completed (June 1993) an extensive
evaluation of IEVS cost effectiveness using various targeting methodologies.ll However,
the results of this study have not, yet, been formally released by FNS. Two States
participated in the study (Arizona and Michigan). The matches studied in Arizona were
the recipient match with State wage, BEER, and IRS. In Michigan, the matches studied
were for applicant matching with State wage, UI, SSA benefits and earnings, SS1 benefits,
and IRS. AU matches were targeted except Michigan’s state wage match.

Arizona and Michigan participated in this evaluation, in part, to prove their contention
that IEVS matching is not cost effective for certain matches. Each State reported having
conducted studies in the past which supported their contention. The study conducted by
Arizona was far less rigorous and Michigan’s study relied on different assumptions, than
those used for the FNS targeting study. Michigan’s study uses a higher estimate of the
time to complete follow up by workers (34 minutes) and a lower estimated time span until
inappropriate payments or eligibility is typically detected. Because FNS has not yet
released its cost effectiveness study, we were unable to assess the validity of FNS’s use of
lower estimates than used by Michigan.

�     Little guidunce has been provided States on how to conduct a cost-bengjit analysis
      for IEVS matching.

According to a recently released U.S. General Accounting Office (GAO) review of

computer matching agreements and the quality of the cost-benefit analyses provided with

the matching agrwments, the quality of analyses is “poor.” The GAO points out that little

guidance has been provided States on how the costs and benefits of matching should be

determined. 12 The GAO notes SSA’S cost and benefit worksheet13 as a notable

exception and recommends that the Director of the Offke of Management and Budget

(OMB) 1) expedite the publication of minimum standard criteria for cost-benefit analyses,

and 2) direct agencies to establish procedures to track costs concurrently and measure

costs and benefits retrospectively to determine whether estimated benefits are actually

achieved. GAO stated, in their report, that OMB “generally agreed with the

recommendations and indicated guidance on conducting cost-benefit analysis would be forthcoming. ”



                                               14

The major@ of States (32) repoti Ma reliability and accunzcy pmbkms with one or
more IEVS matches; however, no specific match was consz”stentlyperceived as a problem
area.

During a recent 12 month period (April 1992 to May 1993), a majority (32) of States
report having experienced data reliability or accuracy problems which undermined the
usefidness of one or more IEVS matches. However, none of the individual matches were
consistently reported to be a problem by a majority of States. (See Figure 5.)

               No IEVS Match is Consistently Perceived by States As Having

                     Significant Data Reliability or Accuracy Problems

            States

             50
             40
              30
              20
              10
              0
                      IRS   State       SSA          BEER     (JIB       Ssl
                            Wage      Benefits                         Benefits
                                         IEVS MATCH
            Source:Based
                       onOIGSu+’ey
                                ofStates
       I
                                —.
                                         I!lgure 5

Follow up discussions with States indicate the number of States reporting problems may
be inflated. For example, some States referenced problems related only to the age of the
data. As one State respondent said, “the data is simply too old to be reliable.” Data
sources which accumulate data over time, through various reporting mechanisms (e. g.,
IRS), will always provide dated information. There is little argument that the older the
data, the less value the data has as a reflection of a client’s present economic situation.
However, this does not mean the data is necessarily inaccurate and unreliable.

The most often encountered problem with IEVS matches is matching with the wrong
person’s record. 14 This occurs most often with matches relying on reporting from third
ptiy SOU~S (e.g., banks, employem). Typically, an employer has submitted the income
of a worker under the wrong SSN. The source of the error can be due to the worker
giving the wrong SSN, the employer incorrectly recording the SSN given by the worker,
or the agency inputing the received wage ~rt’s    SSN incorrectly.




                                               15

States have few or no mechanisms to monitor and assess problems with the accumcy of
&la supplied by the various IEVS &da sources.

While  many States report experiencing problems with various IEVS matches, no State has

monitored, studied, or quantified the types or extent of problems. Claims of data source

problems continue to be based on anecdotal cases.


Since the majority of States are not experiencing consistent problems with any one match,

it could be argued that problems, if they exist, are not systematic or signifkant.

However, it is also possible that workers and match coordinators have simply accepted

certain problems as a part of the matching process or receive so few IEVS alerts that the

scope of data accuracy problems is not recognized. As one eligibility worker stated, “I

see reports so infrequently that I just can’t remember if a problem is significant. I knOW

they happen, but how often I can’t say. ”


State L’s experience provides one indication of why States need to actively monitor

problems with the accuracy of match information. State L implemented IEVS in 1986.

Yet, ever since then, the incorrect BBNDEX amount was being calculated for clients with

the resultant problem of generating incorrect alerts on all BENDBX matches. Only

recently was it discovered that a design flaw in the State’s computer system caused the

errors, not the source information provided in the match. A BENDEX amount was

inadvertently shown with the decimal place moved one position to the right. Thus, a

BBNDEX amount for $100 would appear as $1000.


The IRS Unearned Income and SSA Wage dkta systems were not &signed to meet the
timeliness requirements of entitlement pmgmrns.

Virtually all States report the IRS and BEER matches are not timely for use in the
eligibility determination process. As seveml respondents stated, “the information is just
too old” by the time workers get it. Unfortunately, no other more current data source is
available for IRS information. While State quarterly wage data matches provide a more
current source of State wages, BEER is the only source of earnings from out-of-state
employers, self-employment, agricultural jobs, and Federal employees.

The IRS maintains computerized fdes of information on unearned income paid LO
taxpayers. Payers of this income (e.g., banks) are required to report the payments by
filing annual information returns. The IRS information has timeliness limitations which
are not likely to be overcome without signifkant changes to current IRS reporting and
processing procedures (e.g., running matches more often than the current monthly process
or requiring earlier reporting). Typically, IRS does not receive unearned income reports
for a tax year before the end of February of the following year. Thus, this information
may be anywhere from 2 to 14 months old when reported. Moreover, IRS processing
does not result in a relatively complete master ffle until September following the tax year
for which the information returns are applicable. In other words, by the time the master
fde is complete, the unearned income information has aged an additional seven months.



                                              16

Obviously, IRS’ system for collecting and processing unearned income was not designed
to meet the timeliness requirements of entitlement progm.ms.

The SSA maintains centralized ffles of wages, self-employment earnings, and pension
payment data. Employers annually report wages directly to SSA, while self-employed
individuals report their earning to IRS, which provides the data to SSA. The SSA’s
earnings data are comprehensive in that they include virtually all employees, the military,
Federal civilian employees, and the self-employed. Since employers and self-employed
individuals are required to report earnings information only annually, the data suffers from
the same timeliness problems as the IRS data.



In many Stties, IEVS is not a dynamic process thti cam be tijusted for internal
pressures such as chan~”ng workloads, staffing, and program priorities.

            “One of the things we as a system have to constantly balance is the
           workload, which is increasing for our staff, and the ability to do all the
           IEVS matches, whtkh may be good in and of thenwelves. Somebody has
           to make decisiom on importance and priority. These shl~ over time. It’s
           not a one-timz questwn with only oneset of answers. lke IEVSis a
           dynamic decision process. “

                                       - A State
                                               IEVS Coordinator

Welfare agencies are victims of demographics and the economy with levels of service

varying from place to place and often shrinking with down turns in the economy. 15 The

GAO report entitled “Some Jurisdictions Confronted by Short- and Long-Term

Problems” lb discusses how State and local government spending and revenue pressures

between 1985 and 1991 forced many government entities to control program growth, cut

services, and raise revenues.


Because of the fiscal constraints, State and local budgets have tightened, hiring freezes

have occurred, and layoffs have sometimes been necessary. Consequently, welfare

progmms are typically understaffed. In many States, the number of eligibility workers

has not increased to keep pace with the burgeoning caseloads. The ratio of cases to

workers can be several hundred to one with typical caseloads ranging from a low of 123

AFDC cases in California per worker to as many as 509 cases for a typical West Virginia

worker.


The follow up process to reconcile data received from an IEVS match takes worker time.

With higher caseloads for a worker comes the potential for higher numbers of IEVS

discrepancy alerts to work. Since IBVS regulations do not allow more than 20 percent of

IEVS follow up to exceed the 45 day completion timefmme, States unable to process

IEVS alerts timely must do one or more of the following: 1) hire more staff to handle the

increased workload of follow up, 2) reduce the number of alerts workers have to




                                                  17

complete, or 3) improve the efficiency of alert resolution through systems or procedural
changes.

�      Most Stales employ targeting smategies to limit IEVS alerts to workers.

Recognizing the impact of follow up on workers, nearly all States have implemented
targeting strategies to limit the generation of alerts to those most likely to impact the
eligibility status or benefit amount. In many cases, targeting schemes function more to
limit the follow up workload of workers than to focus review on those most likely to
affect the case. Federal agencies approve targeting plans submitted by States with limited
justification provided by States. In a few cases, States have been allowed to not follow Up
on any information provided by an IEVS source (e.g., Montana’s approved targeting plan
for the BEER match specifically precludes follow up of any BEER match information.)

According to State responses, most States have implemented a targeting strategy for at
least one IEVS source with most States targeting the BEER, IRS, and State wage
databases. Five States reported they do not target any IEVS match.

The types and extent of targeting strategies implemented by the States vary. Typically,
the strategies involve one or more of the following:

       1.	    Use of Discrepancy Thresholds. Individuals or cases are selected for
              review if a difference exists between information (e.g., dollar amount of
              resource) provided by the client and the income information reported on the
              external source database.

       2.	    Use of Tolemnce Z7zreshoZds. TM strategy looks to see if the reported
              amount on the external database exceeds a specifki threshold or limit (e.g.,
              all earned income greater than $500 for a given time period).

       3.	    EXclusion of Dupli~”ve Information from Follow up. If a certain type of
              information duplicates information from another data source already
              matched against, the information is dropped.

       4.	    Exclusion of Repetitive Infonu@”on fmm Follow up. If information has
              already been reported, this strategy would limit further reports to the
              worker from this source (e.g., wage from this employer is not reported to
              the worker beyond the fust alert and in subsequent quarters).

       5.	    Exclusion of Cetiain Infonna%ion Based on the Chanzcteriti”cs of the
              Individual Mdched. Examples of this type of targeting include following
              up on information only if the person is active when the information
              becomes available or if the person is between a certain age (e.g., not less
              than 18 and a student or over 65).




                                              18

If a State targets information items, a targeting plan for each data source must be
submitted to the appropriate regional office of HCFA, ACF, and FNS. Justii3cations are
to be based on the experience of the program in following Up on specific categories of
information. Additionally, States are allowed to use other sources of data as alternatives
to the IEVS data if the State demonstrates that the alternative source is as timely,
complete, and useful for verifying eligibility and benefit amounts as the required source.

While greater levels of automation and targeting can help to keep the IEVS alerts more
manageable, follow up timeframe requirements may limit the ability of the worker to
adjust for peak workload periods throughout the year. The IEVS regulations only allow
workers to exceed the 45 day follow up timeframe for 20 percent of alerts and only for
the explicit purpose of receiving verification from third party sources. Such pnXSUreS
have negative consequences on a worker’s view of IEVS matching according to the
Southwest IEVS Task Force. 17 Task force members believe IEVS “breaks the spirit of
many with its impossible disposal timeframes and nonproductive outcomes. ”

To address timeframe concerns, many States want the timing of IEVS reports to be
flexible so that varying methods of match follow up cart be employed, depending on the
staff resources available. For example, some would use this flexibility to delay reports
from various IEVS sources so they can be compiled into a single document which could
be viewed and resolved at redetermination.




                                                                                       ,,,
States want mom j%?xibility implementing IEVS requirements.

After many years of experience operating
IEVS, States are virtually unanimous           I          Most States Want More Flexibility

about the need for more flexibility in



                                                                                       E
                                                   How Often to Conduct Matches
IEVS regulations. Recipient targeting is                What Matches to ti~t             ,   ,       ,
not considered by States to offer enough                       Targeting Flexibility
                                                            Follow-up Timeframes
flexibility. As figure 6 shows, States want                                  other
the flexibility to choose the matches they                                               ,.. ;   :   ;
                                                                                   020408080100%
conduct, when to conduct those matches,                                                Percent of States
the targeting methodology to use, and the           ~       1S93
                                                               O@ Suvey
                                                                      ofStetes
follow up timefmmes to meet.
                                                                         Figure 6
Additionally, several States want some

relief from IRS security and contldentiality safeguards for match information and

flexibility during one-time events such as times of national disaster (e.g., hurricanes,

floods) or implementation of new computer systems.


States want flexibility from the current IEVS regulations for many reasons. The most

often mentioned reasons are because information from certain matches is considered to be

rarely usefid and some matches are not cost effective to follow up. Other reasons cited by

States (particularly for the BEER and IRS matches) am that match results are not returned

timely by the match source, match results reflect aged information, and workers do not

have the time to work IEVS information because of high workloads.



                                                19

Most States want to discontinue one or more IEVS matches.

Most States (76 percent) would discontinue routine use of one or more IEVS matches if
IEVS matching were at the State’s discretion.                                    States are unconvinced that all required
IEVS matches are beneficial.

As figure 7 shows, States would most like to discontinue the BEER and IRS match for
appli&s and/or recipients.


                           Most States Would Like To Discontinue
                                 the BEER and IRS Match
                  States

                  100yaw.
                       . . . . . . . . . . . . . . .. .. . . . ...” . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . .


                  -“”iii...(j-j
                        60      ----------------                                 -----------             --            --




                             1
                        50
                        40 -“””--”””-”--”””””””””””””””””’””””””””””””
                        30
                        2(’) . . . . . . .. . . .. . . . . . . ... . . . .. . . .. . . . . . . . .r .
                        10

                                                  State                  Ssl              SSA                 IRS              SSA
                                                  Wage               Benefits          Benefits         Unearned             Wages
                                                                                                         Income              (BEER)
                     Source:1993OIGSurveyofStates

                                                                     Figure 7

The IEVS was initiated, in part, because of the Grace Commission’s conclusion that the
Federal and State governments had made several billion dollars in inappropriate payments
in 1982 for assistance programs such as AFDC and Food Stamps. In establishing IBVS,
the Congress intended that IEVS should augment existing State verifkation activities.
However, some States (e.g., Texas, Arkansas, Louisiana, New Mexico, and Oklahoma)
question the validity of the Grace Commission’s conclusions and the true impact IEVS has
had on reducing inappropriate payments.

Based on what representatives from the Southwest region’s I13VSTask Force consider
were false assumptions made by the Grace Commission, “State agencies have b=n paying
the price” since IEVS implementation by having to conduct IEVS matches they perceive
m not cost effective or must be conducted in a manner which is too prescriptive.

Variations in waiver authority among progmms and application of autho~                                                                    jixtiher
limd State flexibility and weaken cooniindon among Fedeml pmgmzns.

While it is clear that States want flexibility, neither the AFDC nor the Medicaid programs
are able to provide much of this flexibility except under very restrictive conditions. For


                                                                                20
example, the AFDC program can only grant a waiver for demonstration projects or as
speciilcally defined in IEVS regulations (e.g., targeting approval, alternate IEVS sources).
Since demonstmtion projects require a rigorous evaluation, few States elect to seek
demonstration project waivers. Unlike AFDC and Medicaid, the Food Stamp program
has the broad administmtive authority to grant waivers of regulations if the actions are
expected to result in a more efficient and effective administmtion of the program (7 CFR
272. 3(c)(l) (ii)) and if doing so would not be in direct conflict with the law.

Because of the differences in waiver authority between the three programs, States
experience different treatment by Federal oversight agencies. For example, a State may
receive a waiver from the Food Stamp program extending the 45 day follow up timeframe
for IEVS matches. Yet, this same State may not receive the same waiver from the AFDC
program. This inhibits State flexibility because State programs are typically integrated by
process or system. Consequently, treating Food Stamp recipients differently from AFDC
recipients would be difficult.

Alabama’s experience serves to illustrate the impact of waiver approval authority
differences on a State’s flexibility, Alabama received a waiver for the Food Stamps
program to not match certain categories of ap@cants and recipients (household members
above and below certain ages were not to be matched); it did not receive AFDC approval
for the same request. The AFDC program could not approve the waiver request because
it lacked the authority to waive the IEVS regulatory requirement that all applicants and
recipients must be matched with prescribed data sources. Alabama ofilcia.ls reported they
were unaware that the AFDC program did not have the same waiver authority as the Food
Stamp program. Because it was unrealistic to differentiate between AFDC and Food
Stamps clients, Alabama did not exercise the Food Stamps waiver. This lack of consistent
authority not only inhibited Alabama’s flexibility to achieve a perceived cost-efilcient
match, it also reinforced the State’s belief that Federal agencies do not adequately
coordinate with each other.

Further, even with waiver availability for Food Stamps, responses suggest that not all
States are aware certain IEVS regulatory requirements can be waived. To date, few States
have sought waivers from the Food Stamp program. The only Food Stamp program
IEVS-related administrative waivers granted, thus far, are for the following six States to
extend the 45 day time limit for d or part of IEVS follow up actions:

              Arkansas       -       waiver expired September 1992

              Texas          -       expi.mxlMay 1993

              New Mexico     -       expired April 1993

              Ohio           -       expires April 1994

              Virginia       -       expires June 1995

              Louisiana      -       effective October 1, 1993


 (Several of these States did not utilize the waiverfiom FNS to extend the 45 allyfollow up
for the Food Stamp program, because no waiver was receivedfor the Al?DCprogram).



                                               21

Another means of providing flexibility to a State’s IEVS is also permissible under current
IEVS regulations; two States have approval allowing usage of alternate sources of IEVS
information:

              California     -       expires L~tober 1994
              Georgia        -       expires December 1995

California’s waiver allows matching with its Franchise Tax Board’s (IWB) interest and
dividend fde rather than the routine IRS match. California does match with IRS once a
year to supplement the FTB match. Approved for the Food Stamp program, Georgia’s
waiver allows use of its “Clearinghouse” to access State wage, unemployment insumnce
benefits, and SS1. The Clearinghouse provides online access to the worker. Provisions of
the waiver require workers to access this information at certflcation, recertiilcation, and
when changes are made to the case.

Given States’ desires for increased flexibility, it is likely that a lack of awareness of the
waiver process and the lack of authority of the AFDC and Medicaid progmms to grant
administrative waivers have caused some States not to seek waivers for the Food Stamp
program. As States become more aware of the Food Stamp pmgmm’s IEVS waiver
authority and if AFDC and Medicaid obtain the authority to waive IEVS regulations, more
States may seek waivers.

We note that ACF has proposed two rule changes which, if accepted, will allow for more
IEVS flexibility in the AFDC program. One rule proposes to modify the IEVS
regulations to allow States the opportunity to present a plan for opting out of ineffective
IEVS requirements. This rule change would permit a State to request a waiver of any one
or more of the requirements for IEVS matching if the State is able to explain why the
information from an IEVS match is not useful or cost effective in determining eligibility
or payment for either applicants or recipients. The waiver request must include a plan
which clearly demonstrates that an alternative to IEVS exists which would achieve the
same or better results (“either in whole or in part”) as the IEVS pmgmm. The plan must
also include a cost-benefit analysis or a request to use cost-beneficial alternative
procedures, such as improved automation techniques and other practices, which would
achieve similar results at lower costs.

This rule overlaps policy proposed in another, broader rule allowing AFDC administrative
waivers. The former rule was submitted for approval by ACF in case the AFDC
Administrative Waiver regulation was delayed. Although both rules were proposed on
May 21, 1992 for the Department’s clearance, neither have been acted upon. According
to ACF oftlcials, the destiny of the rules is intertwined with welfare reform; thus, a
timeframe for acceptance of the rule changes is unclear.

The HCFA has not proposed any rule changes which mirror ACF’S proposed rule
changes. According to HCFA oftlcials, HCFA is waiting for the outcome of ACF’S
proposal before taking action.



                                               22

While most States can make their IEVS processes more efficient and effective, many
report they lack the resources and management commitment to do so.

                    “You have to understand  ourIEVS system. While certain things
                   were visualized to work, they may never have gotten done. If
                   they ran into a problem, it never got jixed. It’s like we just
                   threw up our hunak, and it skays broken. “

                                   - A State IEVS Coordinator

Virtually all State IEVS coordinators (37) report IEVS could be made more efficient and
effective in their State. However, most coordinators (28 of 37 responding) report a lack
of data processing resources (e.g., systems programmers) to support many of these
efforts. As one respondent stated, our “hearts are in the right place, but not our pocket
books. ” Another stated, “because of the time spent making systems changes to adhere to
new or changed Federal mandates, we have difficulty finding the resources to make
systems changes that would help workers with IEVS. ”

Several States remarked that IEVS was implemented with haste, which resulted in system
weaknesses. One State’s computer programmer reported that IEVS was implemented
under such time pressures that the State had to acquire the appropriate software from
another State in order to meet the IEVS implementation deadlines. The result was an
IEVS system which is “poorly documented, “ “riddled with inefficiency, ” and one which
“has never worked the way it was supposed to. ” As an example, a ffle is created as
program clients are added to eligibility roles; however, the program to remove them once
participation has ceased does not operate. ‘I’M leaves many inactive clients on the fde
which results in a degradation in the system’s performance and needlessly takes up
valuable disk space storing old client information. Given the time and resources, this
programmer would like to see the IEVS system redone. This same sentiment was
reported by a programmer in another State. However, in his State, management
supported efforts to modify or remove known deficiencies in its IEVS system.

In addition to targeting, States can do more to reduce the volume of inconsequential alerts
to workers. One way of doing this is to use computer systems to falter out information
which has already been reported to the worker or which the worker should already be
aware. As many as 19 States report they do not do enough in this area. SpecifkaUy,
they do not maintain a historical IEVS database of information already sent to workers in
order to check all new alerts to ensure that duplicative information is not sent to the
worker.

Ohio presents a good example of a State creatively using its computer system to limit
production of alerts caused by inconsequential data. Speci.fkally, falters have been applied
to keep bad match information from generating alerts to workers. A bad match is defined
as invalid information attributed to the client’s SSN. This is the frost falter Ohio applies to
any match. For all sources, if the worker has pnwiously determined and reported that


                                                 23
information from an employer or account is a bad match, the system will not send new
data from the same employer or account as an alert. For technical reasons, however, this
new data is available when accessed directly through the data exchange.

Another way to make IEVS more efficient is to resolve information using a computer,
rather than requiring a worker to resolve it. Specifka.lly, data which does not rquire
independent vedlcation can be directly applied to a client’s record and a recalculation of
benefits made without ever having to involve the worker. Presently, 34 States =
automatically updating case records based on BENDEX (SSA benefits and Cost of Living
Allowance (COLA)) and the data from SDX (SS1 benefits). Remaining States could
reduce the workload of workers by implementing the necessary systems changes to
automatically update client eligibility fdes with BENDEX and SDX data.

The Computer Matching and Privacy Act permits agencies to directly apply information
developed from a computer match (without independently verifying the resulting data’s
accuracy) if the Data Integrity Board (DIB) for the Federal agency providing the data
finds a high degree of conildence that the information provided to the recipient agency
(e.g., States) is accurate. Such a ruling was made by the DHHS Data Integrity Board in
1990 and 1991 certifying that SDX and BENDEX data is accurate. Thus, States are not
required to independently verify data provided by SSA concerning the identification of
individuals and the amount of benefits SSA pays. The DIE decision was based on an
accuracy certifkation provided by SSA. (See Appendix C.)



States have yet to be ~“ven access to adiiitional Fe&ml &a they repoti would be
helpful.

In our 1991 report, “The Income and Eligibility Verifkation System (IEVS): A Time for
Reform?, ” we suggested additional Federal data could be made available to States such as
Veteran’s Administration (VA) data, Federd employee salary and pensions, U.S. Savings
Bonds, and State death records maintained by SSA. We made this suggestion based on
State input that other Federal data could be useful in their eligibility determination
processes.

To date, no additional Federal data sources have been provided States. While we suspect
access to these data sources could be helpful if utilized, we am reserved about requiring
access when many States are failing to adequately utilize those data sources already
required by IEVS regulations.

Veterans Administration Benefits

Some progress is being made in assessing the utility of providing States with greater
access to VA data. Specifkally, ACF has been studying this issue. In 1991, ACF
conducted a preliminary match using Tennessee’s and South Dakota’s welfare rolls and
matched them against VA benefit data. The results were encouraging but limited because


                                              24
the data could not be provided to States for follow Up and a determination of the impact
on client eligibility. This was because the match was conducted for statistical purposes
only, as provided for under the Computer Matching and Privacy Act. To allow States to
follow up on the results of the match, the Computer Matching and Privacy Act requires a
signed matching agreement between the involved agencies. It took over a year, but the
requisite agreement was finally approved allowing ACF’S match using State and VA data.

The VA provided ACF with a fde of its current VA active beneficiary records as of
August 1993. At the same time, the States of New York, South Dakota, and Tennessee
provided ACF with fdes of their current public welfare clients for this same time period.
The match was completed and the results provided each of these States. Presently, these
States are reviewing the information to determine the impact of the VA information on
client benefits or eligibility.

If the results show that access to the VA data would be helpful to States, ACF officials
report they will likely seek legislation to require VA to process requests for information
from States.

Federal En@ovee Salary and Pensions

Although the annual BEER record maintains wage and pension data for Federal
employees, more current data on Federal employees and retirees is available. The USDA
OIG in 1991 conducted a review by matching Federal employee records with Food Stamp
recipient records in 15 States. 18 Based on the findings, the USDA OIG recommended
that FNS determine which Federal information sources would be the most effective and
efllcient for verif@g Fedeml employee and retiree income. The OIG suggested one
alternative to BEER was data on Federal employees maintained by the Defense Manpower
Data Center (DMDC). This organization receives income data on both active
(semiannually) and retired (annually) Federal employees and military personnel for
purposes of identifying Federal personnel who owe delinquent debts to the U.S.
Government as required by the Deficit Reduction Act of 1982.

The FNS Administrator agreed to examine the sources available and identify those most
efilcient and effective for verifying Federal income and committed to work with DHHS in
this pursuit. However, we were unable to determine if any action by FNS has taken place
thus far.

Asked about the utility of expanding State access to Federal employee data, ACF ofilcials
expressed a desire to do a pdimimry statistical match as was done with VA data to
determine if Federal employee salary and pension data looks promising and worthy of
further evaluation. To date, no fm commitments have been made by ACF to test the
utility of such data.




                                               25

U.S. Savinm Bonds

While IEVS regulations require that the income veritlcation process include comparisons
with income data from IRS and SSA, information available from these agencies does not
include the value of U. S. savings bond holdings. Information available through IRS and
SSA includes only data on the interest earned on redeemed savings bonds and on bonds
paying periodic interest. Information on U.S. savings bond holdings is only maintained
by the Department of the Treasury and is not currently available to the States.

Without savings bond data fdes, States cannot determine whether applicants for public
assistance progmms have unreported savings bond holdings. In 1989, GAO released a
report entitled “Some Recipients Neglect to Report U.S. Savings Bond Holdings. ” The
GAO conducted work in Massachusetts and showed the potential exists for individuals
with extensive bond holdings to improperly establish Medicaid eligibility. Further, in the
course of this and previous IEVS reviews, States expressed an interest in having access to
this data. The Texas State Medicaid Director went as far as to send a letter to HCFA’s
Medicaid Bureau urging that access be granted. In response to Texas’s letter, the regional
Medicaid office reported that a proposal was submitted by the Medkaid Bureau for
inclusion in HCFA’S legislative package for fiscal year @Y) 1992. The proposal was
approved by the Department and was slated for inclusion in the Administration’s FY 1992
technical amendments package. However, according to HCFA oftlcials, the proposal was
never acted upon and was not reintroduced at a later date.

State Death Records via BENDEX

Although SSA maintains information reported by States on the death of individuals, this
information is not presently shared with other States because many State contracts with
SSA19do not allow SSA to redisclose death information to other States. Anticipating a
reversal of this situation, the SSA has tidy   built into its SVES query, a module which
would provide death information on individuals States submit for verifkation. However,
death information will continue to be suppressed until barriers (State redisclosure
restrictions) are removed.

The necessary authority to allow SSA to redisclose death data from States is contained in
Section 5201 of the President’s Government Reform and Savings Act of 1993. It was
introduced as H.R. 3400 in the House of Representatives and speci.fles that the Secretary
may redisclose death data provided to the Secretary by the States or any subdivision
thereof to any Federal agency or any agency of a State or political subdivision in
accordance with the Social Security Act.

Two reports completed by GAO and our Office of Audit Services support the utility of
providing death data to States.20




                                             26

                     RECOMMENDATIONS

Independently verifying client circumstances through computer matching with IEVS data
sources helps to ensure the integrity of the eligibility determination process. Although
IEVS matching is mandated by Federal law and regulation, our interviews with State and
local users indicate the pmcticality and cost effectiveness of IEVS under current
regulations is uncertain. The uncertainty and resulting controversy have resulted in IEVS
implementation and monitoring problems which need to be addressed at many levels of
government, from Federal oversight agencies to State and local welfare ofilces.

This report reflects many of the problems which exist with IEVS (constraints on State IEVS
flexibility and lack of coordination between oversight agencies to set consistent policy). The
solutions to these and other IEVS-related problems are not as easily identifkd nor resolved
because of

       1)     the complexity of the issues;
       2)	    the involvement and interdependence of so many different Federal and State
              agencies and programs;
       3)     the fiscal pressures and resource limitations impacting States; and
       4)     the uncertainty and impact of welfare reform initiatives.

As a consequence, it is important that Federal and State agencies assess the current status
of IEVS and define the policy and operational changes needed to accomplish congressional
intent. Critical to the deliberation process is the need for consensus and the full
participation of both Federal and State agencies. Toward this end, we recommend the
following:

Recommendation #1: The Administration for Children and Families (ACF) and the
Health Care Financing Administration (HCFA) should use appropriate mechanisms to
address IEVS issues by:

       �	     examining existing IEVS requirements in each agency, at both the central
              and regional offke levels;

       �	     addressing the need for and deg~     of flexibility to be afforded States
              concerning IEVS;

       �	     identifying spedlc areas in which coordination between oversight agencies
              can be improved, resources can be consolidated or more effectively utilized
              to monitor IEVS, and procedures can be streamlined to minimize
              duplication of effort and contradictions among Federal agencies’ IEVS
              policies (e.g., waiver approval, targeting approval); and




                                             27
       �	     engaging  outside, involved parties (e.g., the States, the Department of
              Agriculture, the OffIce of Management and Budget) to the fullest extent
              possible as IEVS issues (e.g., flexibility) and requirements are debated.

Additions to HCFA’S and ACF’s deliberations should include, but is not limited to:

       1)	    Deftig,    clarifying, and communicating to States the extent of flexibility
              afforded by regulations. Without knowledge of the available options, States
              are unable to fully consider alternatives to improve the efficiency and
              effectiveness of their IEVS processes. A determination of the appmPriate
              level of flexibility should reflect consideration of the results from FNS’s
              IEVS cost effectiveness study.

       2)	    Requiring States to monitor IEVS activity and submit periodic reports
              summarizing IEVS match activity, benefits, and success meeting Federally
              defined performance.

       3)	    Requiring States to match all recipients with IRS by September of each year
              and to ensure applicants are matched monthly.

       4)	    Reviewing the intent of targeting and determining whether a minimum level
              of follow-up is required. If so, what is that level? Should applicant
              targeting be allowed?

       5)	    Coordinating with Data Integrity Boards to monitor and influence computer
              matching for eligibility verifkation puqxxes.

       6)	    Establishing performance indicators to be used by Federal oversight
              agencies to assess State compliance with IEVS requirements and the
              effectiveness of IEVS matching.

       7)     Developing a standard IEVS waiverhargeting approval process.

       8)	    Coordinating the establishment of a timeframe and action plan for assessing
              the utility of providing States with access to other Federal data sources. If
              the assessment shows promise, coordinate agency pursuit of legislative
              changes to allow State access.

       9)	    Acting as a forum or clearinghouse to gather and disseminate IEVS
              experience and best practices to the States.

       10)	   Encouraging States to periodically reexamine IEVS processes to ensure they
              are running as effectively and efficiently as possible. From our interviews,
              it was clear that real worker commitment to resolve IEVS matches within
              prescribed guidelines is more likely when the State’s IEVS system is
              perceived as accurate, reliable, and easy to use. The goal for any Stite is


                                             28
             todo everything possible, within budget limitations, toensurethequtity
             and effectiveness of its IEVS and the acceptance of its users. Towmd this
             end, there are many aspects of IEVS States should be encouraged to review.
             Examples include:

             �	     Where electronic interfaces are used, the system should ensure they
                    are user friendly and understandable. Some areas to consider
                    include the:

                           ease of navigating alert/IEVS information screens,

                           clarity of alert,

                           clarity of error messages,

                           inclusion of sufficient information on data exchange screens

                           to avoid (to the greatest extent possible) workers having to

                           review case records or other reports to resolve an alert, and

                           adequacy of help screens.


             �	     Policy, performance, training, and management feedback areas
                    including:

                           cla.riilcation of policies and performance indicators (e.g.,

                           expectations for matching, reporting of systems problems).

                           routine notilcation of field offkdusers of the results of their

                           efforts (matches resolved, dollar savings identifkxi,

                           percentage done within 45 days, etc.), and

                           IEVS training initiatives (extent of IEVS training and

                           frequency of updates).


             �      Systems enhancements including:

                           use of automatic updating of eligibility files from external

                           data sources,

                           better use of targeting,

                           use of falters (to remove bad data, duplicated data, redundant

                           data, etc.),

                           use of priorities in the preparation of alerts for follow up,

                           inclusion of system generated notices to clients,

                           automatic system generation of IEVS information

                           automatically based on a scheduled client visit, and

                           use of SSA’S File Transfer Management System (FTMS) and

                           State Verifkation Exchange System (SVES).


Recommendation #2: The ACF should continue to seek a rule change which would
allow the AFDC program an equivalent degree of flexibility currently available to the
Food Stamp program with regards to IEVS (e.g., waiver of 45 day follow up
timeframe). Since the AFDC, Food Stamp, and Medicaid programs are highly


                                           29



                                                                                              —
integrated, State flexibility is limited when each program is not able to allow the same
degree of flexibility. States report it is unrealistic to implement an IEVS waiver for one
program without being able to implement the same waiver for the other programs.

Recommendation #3: The HCFA should seek regulatory changes for the Medicaid
program which provide for IEVS flexibility equivalent to those sought by ACF for the
AFDC program. As mentioned above, IEVS flexibility must be consistent between
programs to be implemented effectively by States.

Recommendation #4: The ACF and HCFA should inform State public assistance
agencies of their willingness to work with them to strengthen automated eligibility
verifkation activity.


COMMENTS

Comments on the draft report received from ACF, the Assistant Secretary for
Management and Budget (ASMB), the Assistant Secretary for Planning and Evaluation
(ASPE), SSA, and HCFA concur with both the findings and the general thrust of our
recommendations. However, ACF, HCFA, and ASMB disagree with the need for the
departmental governing council recommended in the draft report and the need for
addressing IEVS issues prior to healthcare and welfare reform. Additionally, HCFA does
not concur with the recommendation to seek a regulatory change to allow for IEVS
flexibility consistent with that sought by ACF.

The need for a governing council stemmed from our view of the complexity of the issues
involved and the need for interzigency coordination and consensus regarding IEVS policy
and compliance. The governing council was envisioned as a framework to promote and
expedite leadership as broad policy (e.g., welfare reform) and technological
(e.g., enhanced systems or new databases)zl changes occur. Both SSA and ASPE
concurred with this nxommendation.

The ACF, HCFA, and ASMB disagreed with the governing council approach primarily
because existing interagency coordination and communication mechanisms were believed
to be adequate. Based on the agencies’ assurances and to provide them maximum
flexibility, we removed the recommendation of a governing council tasked with addressing
IEVS issues; we modi.tied the recommendation to place the burden of addressing IEVS
vulnerabilities with the appropriate agencies through existing communication mechanisms.

With regard to the timing for addressing IEVS issues, the ACF, HCFA, and ASMB
questioned the value of devoting limited staff resources to addressing IEVS at a time when
welfare and health care programs are planning signifkant changes through reforms.
While we recognize change will occur, we cannot in good conscience suggest that
addressing IEVS weaknesses be postponed until reforms have run their course. Our view
is based primarily on the Department’s role and responsibility to curb fraud, abuse, and
program vulnerabilities and the realization that these reforms may take years to


                                             30
implement, with nothing to suggest the importance of IEVS will diminish. In fact, IEVS
activity may become even more critical. According to the President’s welfare reform
propos~, eligibility vetilcation will take on a greater role since “computer matching of
records and sharing of data among State programs and at a national level would be
increased. ”

Additionally, IEVS issues should be addressed without delay because consistent
requirements and flexibility between the major welfare programs is important to those
States which are in the midst of systems changes or planning such changes which may be
constrained by existing policy. While ACF agrees to seek regulatory changes to provide
an equivalent degree of flexibility found in the Food Stamp program, HCFA’s decision
not to seek similar changes may burden States with IEVS regulatory requirements for the
Medicaid population that may not exist for the food stamps and AFDC populations. Since
most States’ automated systems integrate the IEVS process for all three programs,
flexibility is limited if each progmm does not provide for similar matching and follow up
requirements. The resulting disparity between program requirements exemplMes Federal
agencies’ failure to coordinate adequately.

Our concern and purpose in recommending that HCFA pursue regulatory change was to
ensure that ACF’s and FNS’s efforts to provide States expanded IEVS flexibility would
not be limited by the Medicaid program’s restrictions. We do agree with HCFA’s
assertion that many States could make better use of targeting to increase the effectiveness
of IEVS matching while decreasing the burdens of follow up. Our belief stems from 1)
States’ admissions that IEVS processes could be made more efficient and effective by
better use of targeting and 2) results from FNS’S study of the cost effectiveness of
targeting IEVS matches. Although we agree that targeting affords States considerable
flexibility, targeting regulations are restrictive in several respects (e.g., targeting rules
require follow up of all targeted match results for recipients within 45 days of the match
and targeting is not allowed for applicant matches). While we did not directly evaluate
the impact of providing States with added IEVS flexibility, we found States wanting more
flexibility and both ACF and FNS supportive of policy changes to address State desires.

We believe that HCFA needs to work with ACF and the FNS to promulgate consistent
regulations covering IEVS matches. The decision should be based on interagency
discussion and consensus. If the Medicaid program has limited options for flexibility
comparable to the AFDC or Food Stamp programs, no interagency discussion and
consensus is possible and States may be unnecessarily burdened.

The full text of agencies’ responses are in Appendix D.




                                              31

                               ENDNOTES



1.    The AFDC progmm began in 1935 under Title IV of the Social Security Act as a
      way to assist orphans and widows with small children. Today, operating under
      broad guidelines from the Administration for Children and Families (ACI?), the
      program provides cash assistance to families with dependent children. The AFDC
      prog~      is funded jointly by the Federal and State governments through a
      matching formula that varies according to each State’s px capita income. In fiscd
      year 1992, progmm expenditures reached almost $22 billion, an increase of more
      than 70 percent from 1982. During this time, more than 13.6 million people
      participated - almost 25 percent more than in 1989.

2.	   Enacted in 1965 as Title XIX of the Social Security Act, Medicaid is a Fedemlly
      aided, State-administered medical assistance program. Within a broad legal
      framework, each State designs and administers its own Medicaid program and sets
      eligibility standards and coverage policies. Medicaid essentiy    =vices four
      populations: low-income families that lack health insurance, elderly people who
      need help with medical care, disabled elderly individuals who need long-term care,
      and nonelderly disabled individuals who need critical and long-term care. At the
      Federal level, the progmrn is administered by the Health Care Financing
      Administration (HCFA), which is part of the Department of Health and Human
      Services. Since 1982 Medicaid expenditures have grown nearly four-fold to total
      an estimated $120 billion in 1992. Participation in the Medicaid Progmrn has
      grown by over 40 percent since 1982 to reach 30 million recipients in fiscal year
      1992.

3.	   The Food Stamp program exists to ensure that Americans have the means to
      purchase nutritionally sound diets. The program is administered by the Food and
      Nutrition Service (FNS) of the Department of Agricultme, FNS is responsible for
      giving direction to States through regulations that define eligibility nqdrements,
      benefit levels, and administrative rules. The program has financial, work related,
      and categorical tests for eligibility. The Federal government provides full funding
      for Food Stamp benefits, and the cost of administering the program is shared
      equally between the States and the Federal Government. Since 1982, Fede~
      expenditures for the Food Stamp program have increased by more than 100 percent
      from $10.2 billion in 1982 to over $22 billion in 1992. Since 1989, participation
      has grown by an average of 2.2 million individuals annually, and in fiscal year
      1992, benefits were dMributed to more than 25 million individuals.

4.	   According to the Government Accounting Offke (GAO) as reported in a 1992
      report entitled “Ineffective Federal Oversight Permits Costly Automated System
      Problems,” GAO/IMTEC-92-29, May 1992.




                                           32

5.	   “Time for a Change: Remaking the Nation’s Welfare System. ” Report of the WelfUe
      Simplifkation and Coordination Advisory Committee, June 1993.

6.    BENDEX is an automated data exchange system. Through it, the SSA provides State
      public welfare agencies with benefits and earnings information concerning applicants
      for or recipients of needs-based programs, mainly AFDC, Medicaid, and Food
      Stamps. Established in 1968, BBNDBX was intended to reduce State reliance on the
      manual system then being used to obtain information through the SSA district ofllces.
      At that time, the system had grown to the point where on an annual basis it was
      producing about 1,600,000 requests for information via SSA 1610 forms. The new
      automated approach was expected to be more economical and accurate.

      Through BENDEX, States make monthly or semimonthly requests for benefits
      information from SSA and, via computer tape or electronic exchange (wire-to-w&),
      receive it on a semimonthly basis within 2 to 4 we&s. The benefits information
      made available is drawn from SSA’s Master Beneficiary Record (MBR). For SSA
      Retirement, Survivors, and Disability Insurance (RSDI) beneficiaries, the benefits
      information indicates their SSA claim number and Social Security number, name, date
      of birth, payment status, and monthly benefit amount. It also indicatm whether or not
      an individual is eligible for benefits under the Medicare, Supplemental Security
      Income (SSI), Black Lung, and/or Railroad Retirement programs. However, in these
      instances, it does not provide the benefit amount.

      SSA maintains a control record of all the individual BENDEX submissions
      (accretions) made by the States and informs them of any changes affecting a
      beneficiary’s payment status, entitlement date, monthly benefit amount, State or
      county location, or Medicare coverage. Information on such changes is automatically
      incorporated with other BENDEX data being sent to the States.

      BENDEX also serves as a mechanism for States to acquire yearly earnings data from
      SSA’S Ea.mings Refenmce File @RF). Received through the IRS, BEER provides all
      reported earned income for individuals and indicates the name and address of their
      employers.

7.	   President’s Private Sector Survey on Cost Control, Task Force Report on Low
      Income Standards and Benefits, dated May 6, 1983.

8.	   The Food and Nutrition Service (FNS) of USDA published targeting regulations for
      the Food Stamps program in February 1988; the Administmt.ion for Children and
      Families (ACF) of DHHS published targeting regulations for the AFDC program in
      December 1988 (Federal Register, volume 53, No. 250); and Health Care Financing
      Administration (HCFA) of DHHS published regulations for the Medicaid program in
      March 1989 (Federal Register, volume 54, No. 40).

9.    Although July is the fust month when previous tax year data is available, there are
      limitations. According to IRS, the tax year data available in July is only about 60
      percent complete; August is about 80 percent; and not until September is the fde


                                           33
      typically 99 percent complete. As a consequence, States have to balance the

      advantage (timeliness) of matching in July against the disadvantages of matching in

      September (may miss unearned income not available in July).


10.   The remaining 10 States were uncertain about the cost effectiveness of one or more

      matches.


11.   Prepared and conducted for FNS by Mathematical Policy Research, Inc. (MPR) under

      contract No. FNS 53-3198-8-95, Task Order 7. FNS contracted with MPR to

      estimate the cost effectiveness of conducting IEVS matches using a targeting strategy

      compared to the situation in which the match is not conducted at all. All but one of

      the IEVS matches in the demonstration used a targeting strategy.


12.   COMPUTER MATCHING: Quality of Decisions and Supporting Analyses Little

      Affected by 1988 Act, October 1993. GAO/PEMD-94-2.


13.   “Guide for Cost/Benefit Analysis of SSA Computer Matches. ” Prepared by the

      Operations Research and Match Evaluation Staff of the OffIce of Program and

      Integrity Reviews, released March 1990.


14.   Two reports released by the OIG discuss problems with the accumcy of SSNS in

      welfare programs and organizations (public and private). The report entitled, “Extent

      of Social Security Number Discrepancies” (OAI-06-89-01 120) was releiised in 1990

      and found sign&ant SSN discrepancies in the ffles of public and private

      organizations (e.g., banks, prisons). The other report entitled, “Effect of Unverified

      Social Security Numbers on Public Assistance Programs” (OAI-09-86-00068) revealed

      weaknesses in the SSN verifkation process administered by SSA. Based in part on

      findings from this inspection, the SSA has made signifkant improvements in the SSA

      verifkation process through implementation of SVES.


15.   Rising costs and enrollment are severely straining Medicaid, the largest government

      program financing health care for the poor. During most of the 1980s, Medicaid

      costs grew up to 10 percent a year and, in 1989, began to rise even more mpidly. In

      Fiscal Year 1992, Federal and State spending on Medicaid totaled $120 billion - a 29

      percent incnase over the previous year’s total. In addition, the number of

      beneficiaries fkom 1991 to 1992 increased an estimated 10 percent to about 30

      million.


16.   Some Jurisdictions Confronted by Short- and Long-Term Problems (GAO/T-HRD-94-

      1).


17.   Representatives from the five States in the southwest region (Texas, Oklahoma,

      Arkansas, Louisiana, and New Mexico) met in 1992 to discuss IEVS concerns. The

      group prepared an issue paper which they submitted to Federal program ofllcials.


18.   Audit Report No. 27006-1-Te prepared by the USDA Offke of Inspector General,

      March 1991.




                                            34

19.    Section 205(r) of the Social Security Act established a program in 1984, under which
       States voluntarily contract with SSA to furnish death certificate information
       periodically at reasonable costs. SSA shares this information with other Federal and
       State agencies administering Federally fimded benefits. Similar SSA-State agreements
       allow SSA to provide information for use in State funded progmms. Some State
       contracts will allow SSA to redisclose death information only with the written consent
       of the State. In an attempt to discourage such restrictions, OBRA 1993 amended the
       Internal Revenue Code to deny access to Federal tax returns or tax return information
       to States that continue their restrictions, effective 1994. (States may restrict
       redisclosure to Federal agencies only.)

       The proposed NPR legislation would require States to send death information to SSA
       and for SSA to make it available to other Federal and State agencies. SSA would
       make its technical expertise available at reasonable cost to other agencies paying
       Federal and Federally-assisted benefits so they can prevent erroneous payments.

20.	   GAO’s Report was entitled “States Need Social Security’s Death Data to Avoid
       Payment Error or Freud” (GAO/HRD-91-73, April 1991). The OIG Audit Services
       report was issued in 1992 and entitled “The Social Security Administration Needs to
       Improve Procedures in Its Death Match Operations” (A-13-90-00046).

21.	   The president’s welfare reform proposal contains a provision setting up several new
       databases. One of these databases is composed of employment information from
       required employer reporting of new hires. Such a database may drastically alter the
       importance of the State wage and BEER matches.

       Unrelated to welfare reform, SSA is proposing a Simpli&.d Wage Reporting System
       (STAWRS) which could impact IEVS. The proposed STAWRS would provide both
       State and Federal agencies with a single repository of timely and accurate
       wage/income information. Also, it would include data on Federal employees and
       reflect the most current death information.




                                            35

                                APPENDIX                    A
                   SSA’S Ftie Transfer Management System and SVES

Over the years, SSA has made efforts to modernize the process of exchanging information
with States. Historically, the only method for a State to exchange files with SSA was through
the sending and receiving of tapes by mail. Recognizing the possibility of using modems and
phone lines (wire-to-wire) to pass data to and from SSA, SSA instituted in 1974 (in 6 States)
the use of the Batch Data Transmission System (BDTS) which used Programmable Magnetic
Tape Transfer Terminals (PMTTs). The PMTT was a piece of computer equipment which
facilitated transfer of files. When a State had a file to transfer, the State would produce a tape
and, rather than send the tape in the mail, would load the tape on the PMTT and transmit the
files over phone lines. In 1982, the number of States using PMTTs was increased to 10. By
1990, 15 States were using PMTTs.

Instituted by SSA in 1989, the Wire Third Party Query (WTPY) system provided the same
kind of information as the third party query (TPQY) requested from local SSA field offices,
except the request went directly to SSA centrally using a tape to tape transfer or a computer to
computer transfer. WTPY usually returns Old Age Survivors and Disability Insurance (RSDI)
and the Supplemental Security Income (SS1) information back to the State in 24 to 48 hours
through a batch process. This is a significant improvement over TPQY response time which
can be from one to several weeks depending on SSA field office workload. Tennessee and
California were the first States to use WTPY. WTPY was a system intended to lessen use of
the manual TPQY process. Draft guidelines on WTPY were issued by SSA in 1989.

In May of 1990, the PMTTs were discontinued and replaced with modems and a data transfer
software product called National Data Mover. PMTTs were replaced because they were not
adequate to meet the anticipated data exchange needs of SSA (e.g., expected data transfer
traffic to be caused by use of WTPY by all States). SSA refers to the new system of data
transfer as the File Transfer Management System (FTMS). SSA began purchasing and
providing the necessary equipment and software, along with dedicated phone lines, to all
States as funding allowed. The first twelve States to receive the FTMS were Arizona,
California, Florida, Louisiana, Nebraska, New Mexico, New York, North Carolina,
Pennsylvania, Tennessee, Texas, and Wisconsin.

In an effort to address State concerns that inconsistent responses are sometimes provided
depending on what exchange process and data base is queried, SSA has developed and
implemented the State Verification and Exchange System (SVES). WTPY was a precursor of
SVES and became an integral part of the new transfer system. Prior to October 1993, if a
State wanted BENDEX information, a special file had to be prepared. If the State wanted a
WTPY response, a special file had to be created. SVES lessens the workload of producing
multiple files by allowing the State to send only one tile to get information from all of the
various exchanges. All that is required is a code or codes indicating which exchange(s) is to
be accessed for each individual record. These codes can vary by record. By using SVES, a
State can accomplish any or all of the following queries with a single input: 1) SSN
verification, 2) WTPY query, 3) BENDEX accretion/deletion, 4) SDX welfare number
transactions, 5) SDX Interim Assistance Reimbursement (JAR) transactions, and 6) BEER
requests.



                                               A -1

                APPENDIX                                          B

            IRS BENEFIT COS I ANALYSIS
                07/01 /90 - 06/30/91
 FOR MATCH            AGREEMENTS              07/01 /91 - 06/30/92
                                                                            cOST

                                               COSTS                   BENEFIT
                  SAVINGS
                                                $58,199                   $179,3%
AL                  $237,523
                                               $175,976                  ($103,048~
AK                      $22,928
                                                $97,371                    ($83,512)
AZ                      $13,859
                                                 $98,781                   ($91,562~
AR                        $7,219
                                                $2s9,494                ($53,362)
co                         $206,132                                        . .....
                                                                               .....
                                                                                 .. ....
                                                 $~o,057 ~~#~##~~#~
                                                         ,4,,,,,,,
                                                                ....... ~165,513     $
~~                                  #           ~6M,112                              -
      p%%%%%%%~%m........
       ,.:,,,.,,,,,.,,..,.,,, . ..
II                          $458,599
                                                $230,838                  ($198,760)
GA                       $32,078
                                                  $9,085
                  $28,480

HI                     $37,565
                                                $167,03

                                                     6
                         2)

                                                                         ($115,15

ID                     $51,88
                           4
                                                      2

                                                $915,00
                 $1,809,91

                                                                                0

IL                   $2,724,91
                            2
                      $822,26
                            2                  $1,148,13

                                                      1
                        9) z
 COST EFFECTIVE
                                                                          ($32-’’,86

IN                                                                             ’52 E NOT COST EFFECTIVE
                                                                           $916,7.
                      $963,4
                          20                     $46,6

                                                     68

IA
                                                  $7,5

                                                     51
                       06
 ~ NO DATA or
                                                                           $624,8
KS                    $632,3
                           57                                                         INCOMPLETE   DATA
                       $35,4
                           34                   $382,3

                                                     18
                  ($346,8

                                                                                84)
KY                                                                              75

                                                                           $600,9

                           52
                      $716,3	                   $115,3

                                                     77

                                                 $211,

                                                    850
                       866)

                                                                          ($145,

                                                                            ---.-,.




                                                ,p*, , .!a,.r/-   1
                       .$l,w~,lll        I



 B=--’                                               $23,700
                $226,300

                         v-.

                           -,---
                                             ($6,962)

                          $12,147
                   $19,109

 L..                                                                          $32,302

                          $35,877
                    $3,575

 NH                                                                         $2,230,732

 NJ                     $3,154,083
                 $923,351

                                                 $1,755,000               $11,316,000
 NY                   $13,071,000
                                                    $43,151                   $55,732
 NC                       $98,883
                                                    $18,557                   $137,086
     ND                  $155,643
                                                     $307,493                 $119,396

     OH                     $426,889

                                                      $64,751                 $184,586

     OK                     $249,337

                                                          0
                                                      $60,15                  $216,20

                                                                                   0

     OR                     $276,450

                                                          0
                                                      $77,80
                      8)

                                                                               ($44,96

     RI                      $32,83

                                 2

                                                     $123,61

                                                          8
                  ($117,77

                                                                                   4)

     Sc                       $5,84

                                 4
                                                          0
                                                      $17,60
                   ($14,317)
     SD                       $3,28
                                 3
                                                   $3,159,716                 ($965,736)
     TN                   $2,193,980
                                                      $287,1

                                                          60
                   $163,4

                                                                                    12

     TX                      $450,5
                                 72

                                                         $32,650                 $51,480
     VT                       $84,1

                                 30
                                                         $57,224                ($53,224)
     vA                             $4,000
                                                       $427,062                 $223,482
     wA                       $650,544
                                                       $149,280                 $489,882
     W                        $639,162
                                                          $41,319                 $49,290
     WY                             $90,609
                                                  $15,700,210                $16,010,196
                         $31,710,406
                                                                                            SOURCEIRS



                                                B-1

                               APPENDIX                    C
           SSA’S Statement of Data Accuracy Provided the DHHS Data
                         Integrity Board for Its Ruling


                     Statement

                             oftheAccuracyofSDX/BENDEX             Files


Eachyearinmid-November,      theSocial Security Administration(SSA)provides
 computer

filestoState agencies thatindicatetheamountofthecostofliving    allowances
(COLA) for

Title IIbeneficiaries
                    andTitle  XVI recipients. States usethisinformation
                                                                      toadjust
  the

paymentsofindividuals   intheAFDC, Medicaid,
   andfoodstampsprograms.TheseCOLA

     thatSSA provides to States are covered under the SDX/BENDEX computer matching
files

act agreement that was approved by the HHS Data Integrity Board and was effective on
January 1, 1990.

OMB issued temporary guidance on evaluating the reliability of data provided to States for
COLA determinations. The following provides the pertinent information that OMB
suggested would be needed for the Board’s analysis.

o	     Descriptions of the SDX and BENDEX files follow. They describe how SSA
       acquires and maintains the data in these files, along with a description of the COLA
       files. The information provided to the States in the COLA files is limited to
       identification of the individual recipient and the amount of benefits SSA pays.

o	     Therehave been no audits or risk assessments of the COLA files. However, in
       recent testimony to Congressional staff SSA stated that the BENDEX files are
       accurate.

o	     No material
                weaknesses
                         havebeenidentified
                                        ineither
                                               theSDX/BENDEX                      systems
                                                                                        or

       theCOLA files.

o      The computerprogramsusedtoperformtheCOLA adjustmentsarehighly

                                                                    reliable.

       Theseprogramshavebeenoperational                                 an

                                      fora numberofyearsanddo notrequire

                                                           isa changetothe

       annualchangetothecomputerlogic.The onlychangerequired

       paymentamountandthisisvalidated
                                     bothmanuallyandby an automated

                                                                   validation

       process.


o      The SSA Personnel
                       Security
                              programiseffective.
                                               Employeeaccess

                                                             isrestricted

       throughtheuseofPersonal          Numberstoonlythosefiles

                             Identification                   neededby

       employeestoperformtheir        An audit
                             jobduties.          systemmaintains

                                             trail             information

       aboutemployeeswho haveaccessed

                                    files.


o      The SSA Security
                      PlanisinplaceforSSA Systems.The associated
                                                               security

                                                                      riskis

       low. As stated                  todataisrestricted.
                    above,employeeaccess                             ofnon­

                                                        The possibility

       employeeaccessisremote.Physical
                                     accesstothebuilding
                                                       housingthecentral

                                                                       data

                facility
       processing                           Employeeswithaccess
                      forSSA isalsorestricted.                       building

                                                               tothis

       arerestricted       areas.

                  tocertain





                                            c-1
o	      It is SSA management’sposition
                                     thatboththeSDX andBENDEX COLA files     reflect

        a highdegreeofdataintegrityandaredeliveredtotheStatesina timely  manner.

        SSA estimates thatbothCOLA files           of99 percent accurate. Most of
                                        areinexcess

        the inaccuracy is related to the differences in timing between when the COLA tapes
        are produced and when the January payment tapes are sent to the Treasury
        Department. States are informed of subsequentpayment changes by later
        SDX/BENDEXfiles.

Following is additional information about the SDX and BENDEX systems and the COLA
files that are produced.

                                           BENDEX

The Beneficiary and Earnings Data Exchange (BENDEX)file is extracted from SSA’Smaster
beneficiary record (MBR). The MBR data base is the source for determining Title II benefit
payments to which individuals are entitled. Information to establish entitlement is received
directly by field ofllces from the claimant or his or her authorized representative and verified
with documentary evidence.

The data base is maintained through beneficiary reporting and numerous postentitlement
operations such as earnings and student enforcement, death match and accountability reviews.
These operations are an additional measure for monitoring continuing beneficiary entitlement.
Debit and credit actions are maintained in the data base to update the records.

The BENDEX computer system operates without personal intervention. BENDEX
information is released to States in response to requests by the State agencies for information
on individuals who are receiving payments under the AFDC, Medicaid, food stamps, or
other State administered programs. Personal identifying information is submitted by States,
and SSA employs a matching criteria which must be met before data are released. States are
required to disclose the information only to those with a need to know.

Regular BENDEX files are released twice a month to States; any changes occurring are
reported automatically in the next monthly BENDEX run. The BENDEX files are either
electronically transmitted or sent via an express mail carrier.

The cost-of-living adjustment file is electronically produced by SSA in mid-November each
year. This file provides the amount of increase to be paid on January 3 to Title 11
                                                                                                   ,
beneficiaries who are also receiving payments under a State administered program.

In 1990, the COLA fde was provided to States on November 19. With the manual and
systems checks built into the BENDEX system, SSA believes the COLA fde to be highly
accurate.




                                             c-2
The State  Data Exchange (SDX) data that are sent to the States are extracted from the
Supplemental Security Record (SSR) data base. The information on the SSR data base is
manually input by SSA’S district oftlces with managerial/supervisory checks. Before data are
input to the SSR, the district of!lces are required to verify and maintain the verification (e.g.,
marriage/birth certificates, pay stubs, etc.) in the claimant’s folder that is retained in the
servicing district ol%ce. A periodic reverification (the frequency depends on the particular
case) of the information on the SSR data base is required. This requires direct contact with
the Supplemental Security Income claimant.

Once the district oftlce transmits the data to the central SSR data base, there is an extensive
computer edit process that verifies the accuracy and integrity of the input. Various input
fields are cross-checked with each other to ensure consistency of the data, Shouid the input
fail the edit process, the case is referred back to the district ofilce for correction.

Whenever a change in computer program logic is made to the SSR or to the SDX, a
validation plan must accompany the change. This plan ensures that any changes are
thoroughly validated before the change is actually made to the “live” computer system.

Changes tothecomputerprogramlogic
                                forboththeSSR andtheSDX areprohibited

                                                                   shortly
before              change,
      thecostofliving             addingassurance
                           thereby,                        ofthecostof

                                               totheintegrity

     process.

living


The cost of living change does not involve a change to the computer logic. It basically
involves a change to the money amount. Even though this change is not as extensive as a
change in the logic, it is validated both manually and by an automated validation process
before the change is made to the “live” system.

The SDX cost-of-living adjustment file is electronically produced by SSA in mid-November
each year. This file provides the amount of increase to be paid on December 31 to Title
XVI recipients who are also receiving payments under AFDC, Medicaid, or food stamps. In
1990, the SDX COLA file is to be provided to States on November 27. SSA believes this
file to be highly accurate.

Prior to the cost of living process, each SSA regional ofilce is alerted to the cost of living
schedule and, in turn, alerts the States. This is to detect any non-receipt problem at the
earliest possible date.




                                               c-3
                          APPENDIX                    D





TO:	          June Gibbs DLUWII
              Inspector General

SUBJECT :	 OIG Draft Report: “Reforms Are Needed In State Income
           apnd Eligibility Verification Systems, “ OEI-06-92-0008Q

FROM :      *&e&

              Assistant  Secretary
                for Children    and Families

We have reviewed the subject draft and consider the Income

Eligibility verification System (IEVS) process de*riPtion to be

a comprehensive presentation which captures the essence of the

issues States have regarding use of the system in their efforts

to address income and verification activities for the entitlement

programs. As the OIG Study points out, there are operational
weaknesses in the IEVS.  Similarly, the study correctly
identifies several of the major problems confronting the States
in their administration of welfare programs such as fiscal

pressures, resource limitations, and the complexity of the =Y

policy issues that prevail in the States. Additio-llY~   states

are contending with the impact  of welfare      reform initiatives.   We
will continue to assist States as they     Confxmnt   the IEVS issues
highlighted in the study and emphasize the importance of the
required matches (or alternative matches approved under the
regulatory waiver authority) . Furthermore, we will maintain our

hteragenCy working relationship with the Food and Nutrition

Se-ice (FNS).

In response     to OIG recommendations  1, 2, and 4 (we have not
addressed     recommendation  3 which pertains to HCFA) we offer the
following     comuents:

~ATIOXW        #1: The Assistant Secretary for Management and

Budget (Mm)   should establish, with the Administration for

Children and Families (ACF), the Health Care Fi~nC~n9

Mm.inistration (HCFA), and the Social Security Administration, a

departmental IBVS Governing Council.

ACF RBSPONS~: We do not            concur.      We believe    the relevant     Federal
agencies,     including     FNS, should      address     IEVS issues   through
existing    interagency      coorciination      mechanisms    rather   than through
the creation       of a Department       level    council.    Although    the
recommendation       considers     welfare     reform and acknowledges        that
changesi will be occurring,           we believe      that  it is premature      to




                                         D-1

Page 2 - June Gibbs Brown



devote substantial resources to tackle IEVS issues while myriad

welfare reform options are being evaluated.   We need not place

additional burdens upon States or the affected Federal agencies

during this period of transition to a new system.


RECOMMENDATION #2: ACF should continue to seek a rule change
which would allow the AFDC program an equivalent degree of
flexibility currently available to the Food Stamp program with
regards to IEVS (e.g., waiver of 45 day follow up timeframe) .
ACF RESPONSE:  We concur and will pursue options to accomplish

this change.  An equal degree of flexibility will enable the

States to coordinate data exchange activities for all programs in

a consistent fashion.


R.EC~ATION       #4: ACF and HCFA should inform State public

assistance   agencies of their willingness to work with them to

strengthen   automated eligibility verification activity.


ACF RESPONSE:  We concur.  Staff from ACF, HCFA, and FNS have

worked with States in the past on IEVS issues and will continue

to do so in the future.

We appreciate   the opportunity to review and comment on the draft

report.    If you have any questions or wish to discuss these

conments   further, please contact Robert Laue on (202)401-5040.





                                 D-2

I        DEPARTMENT     OF HEALTH & HUMAN SERVICES               JiLe   d me Seaeku#
                                                                                       I


    MEMORANDUM TO THE INSPECTOR GENERAL

    From     :	 Kenneth S. Apfel   &

                Assistant Secretary for Management and Budget

    Subject:	 OIG Draft Report:          Reforms  Are Needed in State Income
                  and Eligibility     Verification Systems--OEI-06-92-OO080--
                  Comments

    In response to your request for comments we have reviewed the

    draft inspection report, Reforms Are Needed in State Income and

    Eligibility      Verification   Systems   (IEVS).


    We concur with the report’s second and third recommendations,

    that ACF and HCFA should seek regulatory changes to provide IEVS

    for the AFDC and Medicaid programs, a degree of flexibility which

    is equivalent to that currently available to the Food Stamps

    program. This flexibility will allow these programs to decide

    which matches to run, as well as the timing on when to conduct

    the matches. Our understanding is that ACF has already begun the

    process of drafting such regulations for the AFDC program.

    We also agree with the report’s final recommendation, that ACF

    and HCFA should inform State public assistance agencies of their

    willingness to work with them to strengthen automated eligibility

    verification activity.

    However, we are troubled by the report~s focus given the change

    that is transpiring in the context of welfare reform.   Rather

    than serving as a forum for discussing old paradigms, this report

    could be far more useful if it sought to direct attention towards

    new opportunities and solutions to problems of eligibility

    verification.


    Rather than simply accepting as valid all of the existing data

    matches, and suggesting that States should simply better use

    existing matches, the report could recommend using States as

    laboratories, by having States request and participate in

    demonstrations to evaluate:


    �	     whether IEVS should remain the preferred approach, or
           whether other approaches exist to better accomplish the same
           goals, especially in the context of proposed welfare reform
           changes;

    �	     under IEVS, what matches  are or aren’t effective, and why
           some   States,    like Califomia.i. fipd matches
                                                       like IRS and BEER
           effective when the majorlcy vi-~iates rate them as
           ineffective; and,





                                           D-3

�	   whether statistical techniques could be used to improve the
     utility of data from matches that States now find
     ineffective.

What is also needed but not provided by the report, is empirical

evidence about the cost effectiveness of the different IEVS

matches.   We understand that this was what ACF had in mind when

they originally requestea that OIG examine IEVS. Such data,

which may need to be the subject of a subsequent study, would

allow an evaluation in terms of dollars and outcomes, to

determine whether we should propose legislation to no longer

require those matches found to be ineffective.   Unfortunately,

the current report only provides State perceptions of IEVS cost

effectiveness, making objective decisions difficult.


Lastly, we would like to state our opposition to the report’s    .

initial recommendation, that the Assistant Secretary for

Management and Budget (ASMB) should establish, with ACF, HCFA,

and SSA, a departmental IEVS Governing Council.  Creation of such

a council:


�	   Does not  address the kev issue for States.  Specifically,
     the States (and the Department) would like to increase
     States’ flexibility to match against those data bases which
     produce maximum results (and not to have to match against
     data bases viewed as producing little or no result), and to
     tailor the verification process to account for variability
     in workload.   All that is needed to address this issue, as
     noted above, is to change existing regulations;

�	   Is unnecessary and the Council would lack the authoritv to
     reuu ire the OPDIV’S to actuallv do anvthinq. The Federal
     programs affected by IEVS already communicate with each
     other. Creation of a governing council may or may not
     increase such communication, but unless ASMB is vested with

     authority to require the OPDIV’S to adopt certain pOliCieS,

     which is not the case under the recommendation, the Council

     is unlikely to be any more or less effective than are

     existing communication channels; and,


�	   As
     ~dv envisioned                        lavers w o are alr
     part of the debate on issues in this area.  We expect that
     in the near.future the Social Security Administration will
     become an independent agency, which would leave only ACF and
     HCFA on the Council.  In addition, the Council does not
     include as members other key players, such as the Department
     of Agriculture.

In addition, IEVS is also under study as part of welfare reform.

Until the Administration’s package is finalized, any

recommendation for a governing council would be premature., For

this and the reasons above, we believe that creation of yet

another coordinating body, to guide IEVS policy, should not be

pursued.





                               D-4

On a technical note, we suggest dropping from the first

recommendation the bullet which suggests the Governing Council

should take a proactive role by acting in an advisory capacity to

the welfare reform task force concerning eligibility verification

issues.   As the task force is nearing the end of its mission to

draft a welfare reform package, this role will shortly be

overtaken by events.





                              D-5

Date
           .17.%&q
From      BruceC. Vlade

          Administrator

Subject
          Office of Inspector General (OIG) Draft Report “Reforms Are Needed in State
          Income and Eligibility Verification Systems,” OEI-M-92-00080
To
          June Gibbs Brown
          Inspector General


          We reviewed the abc)ve-referenced rept     in which OIG found continued Income ant
          Eligibility Verification Systems (JEWS) operational weaknesses whichdirectlyimpact
          the degree to which states are pe~mming da~ ma~hes and the utili~ of IW@ed
          IEVS SOUr@s.

          We agree with rmmmendations      1 and 4, defer ~mment to the Administration   for
          Children and Families regarding recommendation 2, and nonconcur with
          recommendation 3.

          Our detaikd eanrnents on the reprt’s findings and recommendations are attached
          for your consideration. Thank you for the opportunity to review and comment on
          this draft report Please contact us if you would like to discuss our eanments.

          Attachments




                                              D-6
                       Office of Insuector General (OIG) Draft Rewm
                             “Reforms Are Ye.ededin State Income
                              and Eli~ibilitvVerificationSvstems”
                                      (OEI-06-92-00080)


 OIG Recommendation      1

The Assistant Seaetmy for Management and Budget (ASMJ3) should establish, with the
Administration for Children and Families (ACF), the Health Care Financ~g
Administration (HCFA), and the socia] security Administration, a departmental Income
and Eligibility Verification Systems (IEVS) Governing Council.

HCFA Rewmnse

HCFA SUppOrtSthe recommendation mat we ‘take a proa~e              role in streamlhing the
welfare eligibility determination pr~    by offering to act in an advisory capai5ty to the
welfare reform task force concerning eligibility verification issues.” However, we “donot
concur with the need for a new mncd.      We beheve tie issues concerning IEVS can be
reaokd by working with the existing IEVS interagency work group which ACF
coordinates.

‘While this report reaffirms findings from prior OIG and HCFA review we believe
 many of the current problems with State IEVS have ~]ated         because of serious State
 budgetrestraints resourcelimitations and program growth. We believe that establishing
 a full-fledged council would further strain States’ resmurcq especially with the ongo~g
 effort dedicated to heakh care refo~.    ne report affirms our concerns regarding the
 strain on limited State resou~.     For e~ple,    it includes a quote from a State worker
 =Ying, “We can barely issue benefits in a t,imelYmanner, let alone do things like IEVS
 match+ whichare real nice but impractical.n

QIG Recommendation      2

ACF should continue to seek a ~le change which wou]d wow the Ad to Families with
Dependent Children (AFDC) program an equivalent degree of flexibility currendy
available to the Food Stamp program with regards to IEVS (e.g., waiver of 45-*%
followup timeframe).

WF   A Resuonse

HCFA defers comment to ACF, the action agency for this recommendation.




                                          D-7

OIG Recommendation 3

HCFA should seek regulato~ changes for the Medicaid program whichprovidefor
IEVS flexibilityequivalent to those sought by ACF for the AFDC program.

HCFA Response

We do not concur. In 1989, we amended the IEVS regulations and provided the States
more flexibility through targeting (or selective use of data). We continue to believe that
these regulations provide sufficient flexibility for States to make IEVS cost-effective.
States are authorized to sekxt the most useful IEVS data sources and only follow up on
those match results that have proven to be effective.

We reconsidered revising the regulations to provide States further flexibility and
discussed it with the interagency work group. We considered permitting a waiver of the
Beneficiary Earnings Exchange Rewrd match. We decided not to pursue this change
because we believe that many of the State/Federal ~nclusions of cost-effectivi%ness were
based on program experience and perception rather than cost-benefit studies. We
waited for the results of a Food and Nutrition SeMce (FNS) study of targeting
methodologies before making a decision. The FNS study found that IEVS is wst­
effective if States target the uses of the data appropriately. We also believe that we
should defer initiatives for new regulation changes at this time because of the current
discussionof health care reform. Decisions on health care reform may fundamentiw
change Medicaid’s role in IEVS.

We believe that we should wntinue to work with States to implement targeting strategies
that make IEVS less resource intensive. With the proper strategy, States can use the
program in a cost-effective manner. We”will be flexiile in approving State targeting
plans.

91G   Recommendation    4

ACF and HCFA should inform State public assistance agencies of their willingness to
work with them to strengthen automated eligibility verification activity.

HCF A resoonse

We wncur.    We will send a wpy of this report to our regional offices (ROS) and ask
them to share it with the IEVS coordinators in each State. Our RO staffs have made
themselves available to work with the States on “automation” issues and eligibility
verification in the past and will continue these efforts. Further, our Central Office staff
in the Division of Payment System& Medicaid Bureau, works closely with the States to
improve State use of automated eligibility systems. nere is also a Systems Technical
Advisory Group devoted to automationissues.




                                            D-8

               MAY
                 27 1~
Date:
           Shirley S. Chater
From:      Commissioner of Social+b~om.                                             we   ~eeded
           Office of Inspector General Draft Report,
subjeCt:   In State Income and Eligibility                 Verification       Systems”
           (OEI-06-92-00080) --INFO~TION

To:        June Gibbs Brown
           Inspector General

                                                                                  If we can be

           Attached   is    Our   response     to   the     SUbje::o:POrt­
           of further      assistance,       please       let us         .


           Attachment:

           SSA Response





I

                                                      D-9
~
 AL SECURI
1?                                                                  E OFFICE OF
    PE C!TOR GENERAL        DRAFT     REPORT.      nREFORXS     ARE NEEDED IN STATE
~                                                                       0EI-06-92-OO080


We appreciate the efforts of the Office of Inspector General

(OIG) in assessing the current status of State Income and
Eligibility Verification Systems (IEvS)- We concur with the four
recommendations for the assessment and improvement of IEVS. The
findings and conclusions in the report substantially   mirror the
Social Security Administration’s   (SSA) experience in dealing with
States’  users of IEVS.  The following comments offer some
suggestions for improving the focus of the report.


We believe that the outcome ox the Wage Reporting Simplification
Project, specifically the proposed Simplified Tax and Wage
Reporting System (STAWRS), could have a significant impaCt On
IEVS and suggest that the final OIG report reflect this point.


The report indicates that many States are not taking advantage                                      of
various Federal and State data sources (computer matching
opportunities)  because they believe it is not cost-effective to
do SO.   Some States claim that the IEVS process provides
inaccurate or untimely data, does not include certain Federal
data, and lacks the flexibility necessary to effectively and
efficiently implement IEVS requirements.   It should be noted that
the proposed STAWRS would provide both State and Federal agencies
with a single repository of timely and accurate wage/income
information.   It would also include data on Federal employees and
reflect the most current death informational   By maintaining this
information in one place, State and Federal agencies could avoid

having to perform multiple computer matches that are costly and

time-consuming.


In addition, STAWRS is expected to provide users with Social

Security number (SSN) verification services (validation of name

and SSN combinations)  which is expected to result in improved

record keeping.   In short, we believe that STAWRS could help

alleviate many of the IEVS problems cited in the report.


There seems to be an inconsistency in the situation described

with respect to State use of IEVS data, and the suggestion that

more data from additional sources should be made available to
States.    If the States are unable to use the data they are given
now, it seems anomalous to suggest that they    be given even more
data.   We believe  this apparent  discrepancy needs to be further
clarified.



     ‘km? State5 do not permit SSAto redi sclose the death data they give SSA to other States. me
Inteml Revewe Cedewas animdedby the LlsrsibusBudgetReconciliation Act of 1993. P.L. 103-66. to preclude
disclosureof Federal tax data to States that restrict redl sclosure of their death data to other
                                                                                               federal
agencies. Hwever. the law does not require States to authorize redlsclosure by SSAto other States. A
pendingbill. H.R. 3400. if enacted, wuld remedy this.




                                                D-10

                                                                         L


OIG Recommendation


The Assistant    Secretary  for Management   and Budget    (ASMB) should

establish,   with the Administration     for Children   and Families

(ACF) , the Health Care Financing     Administration     (HCFA), and SSA,

a departmental    IEVS Governing  Council.


SSA   Comment


We concur.     The problems   delineated  in the report are well known

to SSA’S match coordinators.        In our efforts  to comply with the

Deficit   Reduction  Act of 1984 and the Computer      Matching   Act of

1988, we work closely with the States to maintain          matching

agreements    and operations,   as prescribed   by each Act.     For

example, we recently sent a third annual request to all SSA

Regional Commissioners for updated cost/benefit data and analyses
from States  on matching   programs subject to IEVS regulations.    We
also raised  issues  about State priorities   and resources and the
need to be proactive in seeking solutions to under-utilization      of
computer matching at the State level. A helping hand to the

States at the staff level, however, has had limited effect.

Accordingly, we believe the establishment of an IEVS Governing

Council is an essential first step to focus attention on State

solutions.


SSA took this top-down approach to the organization and

management of its own automated data exchange and matching

activities in 1984. Some results include the current SSA Cost

Benefit Guide and relative state-of-the-art systems technologies

and methodologies for planning, implementing and evaluating IEVS

type matches. ,IJnderthe aegis of the Governing Counsel, SSA’S

experience could be replicated in the States.   SSA can share its

methodol~qies for developing a standard IEVS waiver/targeting

approval process with the Governing Counsel, including computer

screening techniques and related systems enhancements.


We believe SSA should have primary responsibility for providing

necessary security consultation to the Governing Council.  SSA

already has the major security responsibility in this area, and

as such, possesses the experience necessary to ensure that IEVS

security requirements are not made more complicated, but rather

consolidated and simplified.


OIG Recommendation


ACF should continue to seek a rule change which would allow the
Aid to Families with Dependent Children (AFDC) pro9ram an
equivalent degree of flexibility currently available to the Food
Stamp program with regards to IEVS (e.g., waiver  of 4S day follow
up timeframe) .




                                                                             I


                                    D-n


                                                                     —
                                                                    3





~sA          cO-ent

 we         cOnc~r”

                                        for the Medicaid ‘r~~~~~t   by

 OIG Reco~ndatioS                                 to those

                                       evivalent

 HCFA should  seek        flexibility

                   regulatory  changes

  which provide for lEVS

I ACF for the AFDC program.

      sSA        Co-ent
      we         concur.
                                                          agencies of

       OIG Reco~endation
              Public assistance automated

       ACF and HCFA should
                         toInfom  ‘tat~hem to strengthen

                            work with.

       their willinmess

       eligibi.~ityverification actlvlty­




            ~e    cOncur”




                                            ~-12



                                                    —--”--
